<html>
<title> - THE FISCAL YEAR 2015 DEPARTMENT OF ENERGY BUDGET</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






            THE FISCAL YEAR 2015 DEPARTMENT OF ENERGY BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2014

                               __________

                           Serial No. 113-135

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                    ______

                         U.S. GOVERNMENT PRINTING OFFICE 

90-823 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 _____

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               PAUL TONKO, New York
JOSEPH R. PITTS, Pennsylvania        JOHN A. YARMUTH, Kentucky
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
BILL CASSIDY, Louisiana              MICHAEL F. DOYLE, Pennsylvania
PETE OLSON, Texas                    JOHN BARROW, Georgia
DAVID B. McKINLEY, West Virginia     DORIS O. MATSUI, California
CORY GARDNER, Colorado               DONNA M. CHRISTENSEN, Virgin 
MIKE POMPEO, Kansas                      Islands
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN D. DINGELL, Michigan (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)    HENRY A. WAXMAN, California (ex 
                                         officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     2
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     7

                               Witnesses

Ernest J. Moniz, Secretary, Department of Energy.................     8
    Prepared statement...........................................    11
    Reply to Mr. Tonko...........................................    47
    Reply to Mr. Burgess.........................................    63
    Reply to Mr. Kinzinger.......................................    73
    Reply to Mr. Johnson.........................................    83
    Answers to submitted questions...............................    88

                           Submitted Material

Slide, DOE Budget for Applied Energy and ARPA-E, submitted by Mr. 
  Burgess........................................................    61

 
            THE FISCAL YEAR 2015 DEPARTMENT OF ENERGY BUDGET

                              ----------                              


                        THURSDAY, APRIL 3, 2014

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Scalise, Hall, 
Shimkus, Terry, Burgess, Latta, Cassidy, Olson, McKinley, 
Gardner, Pompeo, Kinzinger, Griffith, Barton, Upton (ex 
officio), Rush, McNerney, Tonko, Engel, Green, Capps, Doyle, 
Barrow, Matsui, Christensen, and Waxman (ex officio).
    Also present: Representative Johnson.
    Staff present: Nick Abraham, Legislative Clerk; Gary 
Andres, Staff Director; Charlotte Baker, Deputy Communications 
Director; Mike Bloomquist, General Counsel; Sean Bonyun, 
Communications Director; Matt Bravo, Professional Staff Member; 
Allison Busbee, Policy Coordinator, Energy and Power; Annie 
Caputo, Professional Staff Member; Patrick Currier, Counsel, 
Energy and Power; Tom Hassenboehler; Chief Counsel, Energy and 
Power; Jason Knox, Counsel, Energy and Power; Brandon Mooney, 
Professional Staff Member; Mary Neumayr, Senior Energy Counsel; 
Peter Spencer, Professional Staff Member, Oversight; Tom 
Wilbur, Digital Media Advisor; Jeff Baran, Democratic Senior 
Counsel; Greg Dotson, Democratic Staff Director, Energy and 
Environment; Caitlin Haberman, Democratic Policy Analyst; and 
Bruce Ho, Democratic Counsel.
    Mr. Whitfield. I would like to call the hearing to order 
this morning. And today, we are going to be looking at the 
fiscal year 2015 budget for the United States Department of 
Energy. And of course, we are delighted that Secretary Moniz is 
with us this morning. I know he has been very busy on the Hill 
and the Senate side as well. And we really look forward to his 
testimony today and to the opportunity to ask questions 
regarding next year's Department of Energy's budget request.
    At this time, I would like to recognize myself for 5 
minutes for an opening statement.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    DOE of course is tasked with developing and implementing a 
coordinated national energy policy, one that should further an 
all-of-the-above energy strategy. It should also be fostering 
private sector competition and innovation of advanced energy 
technologies. And national energy policy should also continue 
to support job creation in our manufacturing renaissance by 
providing regulatory certainty rather than overreaching 
regulations so that we can maintain access to affordable, 
abundant and reliable energy supplies.
    I noticed that the DOE fiscal year 2015 budget request $9.8 
billion for DOE Science and Energy programs that DOE states 
will play a key role in achieving the President's Climate 
Action Plan. In other words, over a third of the entire $28 
billion budget is being allocated to the President's climate 
agenda. This budget affirms the DOE is putting the President's 
climate change agenda ahead of the interest of a balanced 
national energy policy. Now, we can debate that, but it is 
quite clear that the President's climate change agenda is right 
at the top of the mission of the DOE at this time. This mission 
is further evidenced by the fact that the DOE's budget once 
again overwhelmingly favors the Office of Energy Efficiency and 
Renewable Energy, which houses all of the President's favorite 
green energy programs. And in fact, the 2.3 billion requests 
there is more than the combined budget requests for the Offices 
of Electricity, Fossil Energy, Nuclear Energy and ARPA-E. In my 
humble opinion, we have seen the Obama administration waste too 
much money on green energy projects that have failed. Many have 
gone into bankruptcy at the expense to the taxpayer.
    Another issue that is of concern to me and many others in 
the proposed is the substantially reduced funding for the mixed 
oxide fuel fabrication facility, MOX, currently under 
construction at Savannah River Site in South Carolina. In the 
case of the MOX plant, DOE has decided to abandon construction 
of the facility being built to eliminate 34 tons of surplus 
weapons plutonium, a project that was initiated in the Clinton 
administration. At this point, $4 billion has already been 
spent, and the facility is 60 percent complete. Yet, the 
Department has decided to shut down construction. And it 
appears, without any record of decision or any proposed 
alternative, or any analysis of the ramifications. Now, maybe 
they are there, but maybe we just haven't seen them yet. 
Congress appropriated funds for the construction. But it is my 
understanding that DOE does intend to use those funds instead 
to shut down the project, resulting in 1,800 people at risk of 
being laid off at their job. And it is disturbing because of 
what had happened at Yucca Mountain; the money that was spent 
at Yucca Mountain, that was stopped, the lawsuits that were 
filed as a result of that, and the liability of the Federal 
Government under those lawsuits. People who are concerned about 
our debt are genuinely concerned about wasting that amount of 
money.
    I want to thank Secretary Moniz for appearing with us today 
on this budget. And as I said in the beginning, he has been a 
real energetic Secretary of Energy. He is willing to engage on 
these issues at any point. And it is good to have open 
discussion with him. And I want to commend him for that. We 
look forward to hearing his testimony and asking him question 
about the budget.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    This morning's hearing will focus on the proposed Fiscal 
Year 2015 budget for the Department of Energy. Welcome, 
Secretary Moniz. We're very pleased to have you here today to 
share your views on the Department of Energy's FY 2015 budget.
    DOE is tasked with developing and implementing a 
coordinated national energy policy, one that should further an 
``all-of-the-above'' strategy that promotes greater production 
of all of America's resources. It should foster private sector 
competition and innovation of advanced energy technologies. A 
national energy policy should also continue to support job 
creation and our manufacturing renaissance by providing 
regulatory certainty, rather than overreaching regulations, so 
we can maintain access to lowcost energy supplies.
    But the DOE budget before us today, I am disappointed to 
say, is not reflective of a true national energy policy. 
Rather, it contributes to the lending of taxpayer support to 
the President's Climate Action Plan. To be sure, the DOE FY 
2015 budget request includes $9.8 billion for DOE science and 
energy programs that DOE states ``will play a key role in 
achieving [the President's Climate Action Plan] goals.'' In 
other words, over a third of DOE's entire $28 billion budget is 
being allocated to the President's climate agenda.
    This budget affirms that DOE is all-too-willing to 
acquiesce to EPA's anti-energy agenda rather than affirmatively 
assert its own pro-energy agenda. This budget further creates 
additional concerns in my mind that DOE is blatantly putting 
the President's climate change agenda ahead of the interests of 
a balanced national energy policy and the interests of the 
American people. This mission is further evidenced by the fact 
that DOE's budget once again overwhelming favors the Office of 
Energy Efficiency and Renewable Energy (EERE), which houses all 
of the President's favored green energy programs. In fact, 
EERE's $2.3 billion budget request is more than the combined 
budgets of the Offices of Electricity, Fossil Energy, Nuclear 
Energy, and ARPA-E.
    We've seen the Obama administration waste too much money on 
green energy pet projects that have failed, and we owe it to 
the taxpayers not to repeat those mistakes. That is why I am 
disappointed to see yet another DOE budget pursuing the same 
failed policies in pursuit of a climate agenda that has 
repeatedly been rejected. The fact that the President and DOE 
continue to circumvent Congress to unilaterally pursue policies 
that are not supported by the American people is an affront to 
the democratic process.
    DOE instead should be taking a much more balanced approach 
that reflects current energy and economic realities. For 
example, America's abundant energy resources--including coal, 
oil and natural gas--holds tremendous potential for energy 
affordability and security, for job creation, for export 
opportunities, and for strengthening America's standing in the 
world. But it also poses implementation and innovation 
challenges for which DOE can play a role. DOE should be out in 
front of this effort, but the proposed budget does not reflect 
this need.
    Another issue that is of great concern to me in the 
proposed budget is the substantially reduced funding for the 
Mixed Oxide Fuel Fabrication Facility (MOX) currently under 
construction at Savannah River Site (SRS) in South Carolina. In 
the case of the MOX plant, DOE has decided to abandon 
construction of the facility being built to eliminate 34 tons 
of surplus weapons plutonium, a project initiated by the 
Clinton administration. At this point, $4 billion has been 
spent and the facility is 60 percent complete, yet DOE has 
decided to shutdown construction apparently without any Record 
of Decision, any proposed alternative, or any analysis of the 
ramifications. Congress appropriated funds for construction, 
but it is my understanding that DOE intends to use those funds 
instead to shut down the project resulting in 1800 people at 
risk for layoffs.
    It seems to me that if DOE is going to abandon a $4 billion 
investment, the taxpayers and those at risk of losing their 
jobs deserve a thorough basis for it. I would urge DOE to use 
the funds for construction of the facility as originally 
appropriated by Congress.
    Again, I want to thank Secretary Moniz for appearing before 
us today on DOE's FY2015 budget proposal. I look forward to 
hearing his testimony and asking him questions on issues before 
the Department of Energy.

    Mr. Whitfield. And at this time, I would like to recognize 
the gentleman from Illinois, Mr. Rush, for his 5-minute opening 
statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman. And I want to 
thank you, Secretary Moniz, for being here today to discuss 
DOE's fiscal year 2015 budget.
    Secretary Moniz, I would like to commend you for 
establishing the minority's and energy's initiative at DOE. 
Following discussions where I express my strong and overriding 
desire to increase minority participation and involvement 
within all sectors of the energy industry. While I believe that 
this is a first--a good first step, I have some serious 
concerns regarding the amount of resources the Agency is 
actually investing in this initiative, as evidenced by your own 
budget proposal.
    Mr. Secretary, to me, DOE's budget is a moral statement of 
principles and a covenant with the American people. Mr. 
Secretary, when I speak to my constituents about this new 
initiative, one of the very first questions that they want to 
know is how committed is DOE to this program, and how much of 
the Department's vast resources is the Agency willing to invest 
to ensure that this initiative achieves overwhelming success?
    Mr. Secretary, I am sure that you understand that in 
minority communities around the country, there is always 
skepticism when new programs or new policies are announced 
supposing to help increase opportunity when the resources to 
help make them successful are not included. So when members who 
represent these communities, such as myself and many, many 
others see a lack of investment in programs designed to assist 
minorities, it is our duty to hold the administration and the 
Agencies responsible in order to rectify the situation. For 
instance, Mr. Secretary, I am not impressed with the investment 
in the minority and energy initiative as it currently stands. 
And I want to work with you to make sure that we are not 
shortchanging these communities who are looking for 
opportunities to improve their livelihood, as so many others 
have already been afforded.
    And, Mr. Secretary, we know that these opportunities are 
out there. In fact, we have come a long way since I first 
inquired--first started inquiring into the levels of 
participation of minorities in all different sectors of the 
energy industry. And now we have the administration, the 
industry, schools, universities, and all--they are all talking 
about the concept of increasing the number of minorities in 
energy. As you know, I have a bill that will provide a pass way 
to energy jobs by reaching out to minority communities and 
informing them of mostly opportunities available within the 
energy sector, as well as the skills, training and 
certifications needed to take advantage of these opportunities. 
My office is actively reaching out to members on both sides of 
the aisle who understand the need for better preparing all 
Americans for energy jobs in the present and the future. And I 
will continue to work with any and all stakeholders who are of 
the same mind.
    This is my hope, Mr. Chairman, that we can hold a hearing 
on this very important topic of minority participation in the 
energy sector in order to make up for the shortfall of workers 
who will be retiring and exiting the workforce, leaving behind 
a shortage of talented and skilled workers in their wing. And 
the fact of the matter is that increasing the number of skilled 
and trained workers will in fact be a win for the industry, a 
win for the minority communities and a win for the entire 
American economy as a whole. So I look forward to working with 
you, Mr. Secretary, as well as members on both sides of the 
aisle to make this a real commitment on the part of the 
administration and----
    With that, I yield back.
    Mr. Whitfield. The gentleman yields back. At this time, I 
recognize the chairman of the full committee, Mr. Upton, for 5 
minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, Mr. Secretary, welcome back to the 
committee. I for one do appreciate your thoughtful insight and 
friendship. And when I look at DOE's current energy policies, 
as well as its budget for fiscal year 2015, I must confess that 
I see an agency that is still struggling a bit to keep up with 
a changing energy landscape. The old assumptions of energy 
scarcity are somewhat pervasive, and it is time for DOE to 
adapt.
    It does appear that DOE is ultra-cautious approach to 
proving LNG Export's--you would expect us to say this today--to 
non-free trade agreement trade agreement countries does not 
reflect our newfound age of energy abundance. Projections from 
the EIA, as well as DOE's own analysis, confirm that we have 
more than enough natural gas to meet domestic needs affordably 
while supporting export markets. And this surplus situation is 
likely to last for many decades. The ramifications of DOE's 
policy on exports can be measured not only in the thousands of 
unrealized jobs that could be constructed at LNG Export 
facilities and producing the extra natural gas for export, but 
also in the billions in revenues that could be flowing into the 
country and boosting the overall economy. Geo-political 
opportunities are also at risk. The mere signal that the U.S. 
is serious about entering export markets would have an 
immediate effect on our allies in Eastern Europe who are 
currently dependent on that--on Russia for natural gas. In 
fact, reports earlier this week show that Russia upped the bill 
by as much as 45 to 50 percent on our friends in Ukraine. That 
is why I and so many others support Cory Gardner's bill, H.R. 
6, bipartisan legislation, The Domestic Prosperity and Global 
Freedom Act, which would help clear the backlog of export 
applications currently at DOE.
    LNG export facilities are just one part of the larger 
infrastructure picture to make full use of our newfound energy 
advantage in H.R. 6, is one bill that facilities building 
these--this architecture of abundance. We are in the midst of a 
continued and comprehensive effort to review and update energy 
laws, many of which were written in a time of Jimmy Carter Era 
price controls and scarcity. And whether it is legislation to 
modernize and update transmission and distribution 
infrastructure, legislation to maintain adverse electricity 
portfolio generation with a continued role for coal and nuclear 
renewables, or legislation seeking or ensure that we have the 
tools in place to permit a new manufacturing renaissance, we 
are building a record and exploring opportunities at every 
level.
    Now, I know that DOE is beginning a similar effort to look 
comprehensively at our energy infrastructure and broader 
strategy through the quadrennial energy review process, and I 
welcome that broad look. However, I remain skeptical of the 
Federal Government playing venture capitalist in making other 
decisions best left to the marketplace. DOE may be talking 
about the energy breakthroughs of the future, but the Agency is 
still trying to get there with central planning approaches of 
the past. In particular, the revival of the loan guarantee 
program that backs Solyndra and several other projects that 
went bust is of serious concern and will no doubt be a topic of 
discussion of today.
    I would like to conclude just by reminding you of DOE's 
role in the Federal Government. Yesterday, this subcommittee 
held its EPA budget hearing. And I couldn't help but notice the 
extent to which EPA sets the energy policy agenda in the 
administration, even though that Agency has no statutory 
authority to do so. DOE should be the energy policy setting 
body, but it seems as though it has relinquished that duty to a 
degree. In past administrations, both Republican and 
Democratic, DOE acted as a pro-energy counterweight to an EPA 
whose tendency was to regulate every BTU that it encountered. I 
know that we can restore DOE's mission to ensure a more 
balanced approach to the energy policy. And I yield back the 
balance of my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Secretary Moniz, welcome back to the committee. When I look 
at DOE's current energy policies as well as its budget for 
Fiscal Year 2015, I see an agency that is struggling to keep up 
with a changing energy landscape. The old assumptions of energy 
scarcity are still pervasive and it is time for DOE to adapt.
    For example, DOE's ultra-cautious approach to approving LNG 
exports to non-Free Trade Agreement countries does not reflect 
our newfound age of energy abundance. Projections from the 
Energy Information Administration as well as DOE's own analysis 
confirm we have more than enough natural gas to meet domestic 
needs affordably while also supporting export markets. And this 
surplus situation is likely to last for many decades.
    The ramifications of DOE's sluggish policy on exports can 
be measured not only in the thousands of unrealized jobs that 
could be constructing LNG export facilities and producing the 
extra natural gas for export, but also in the billions in 
revenues that could be flowing into the country and boosting 
the overall economy. Geopolitical opportunities are also at 
risk. The mere signal that the U.S is serious about entering 
export markets would have an immediate effect on our allies in 
Eastern Europe who are currently dependent on Russia for 
natural gas. That is why I and so many others support Cory 
Gardner's bill, H.R. 6, ``The Domestic Prosperity and Global 
Freedom Act,'' which would help clear the backlog of export 
applications currently languishing at DOE.
    LNG export facilities are just one part of the larger 
infrastructure picture to make full use of our newfound energy 
advantage, and H.R. 6 is just one bill that facilitates 
building this architecture of abundance. We are in the midst of 
a continued and comprehensive effort to review and update 
energy laws, many of which were written in a time of Carter era 
price controls and scarcity. Whether it is legislation to 
modernize and update transmission and distribution 
infrastructure, legislation to maintain a diverse electricity 
portfolio generation with a continued role for coal, nuclear 
and renewables, or legislation seeking to ensure we have the 
tools in place to permit a new manufacturing renaissance, we 
are building a record and exploring opportunities at every 
level.
    I know DOE is beginning a similar effort to look 
comprehensively at our energy infrastructure and broader 
strategy through its Quadrennial Energy Review process, and I 
welcome this broad look. However, I remain highly skeptical of 
the Federal Government playing venture capitalist and making 
other decisions best left to the marketplace. DOE may be 
talking about the energy breakthroughs of the future, but the 
agency is still trying to get there with the central planning 
approaches of the past. In particular, the revival of the loan-
guarantee program that backed Solyndra and several other 
projects that went bust is of serious concern, and will no 
doubt be a topic for discussion today.
    I would like to conclude by reminding DOE of its role in 
the Federal Government. Just yesterday, this subcommittee held 
its EPA budget hearing, and I could not help but notice the 
extent to which EPA sets the energy policy agenda in this 
administration, even though that agency has no statutory 
authority to do so. DOE should be the energy policy-setting 
body, but it seems as though it has relinquished its duty. In 
past administrations, both Democratic and Republican, DOE acted 
as a pro-energy counterweight to an EPA whose tendency was to 
regulate every BTU it encounters. I hope we can restore DOE's 
mission to ensure a more balanced approach to energy policy.

    Mr. Whitfield. Mr. Upton yields back the balance of his 
time. At this time, I would like to recognize the gentleman 
from California, Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman. And, Mr. Secretary, 
welcome back to our committee.
    Last week, Geochemist James Lawrence Powell published a 
study documenting the scientific consensus on climate change. 
Dr. Powell, who, among other things, served on the National 
Science Board under both Presidents Reagan and George H.W. 
Bush, looked at all the peer-reviewed scientific articles 
published on climate change in 2013. He found over 10,000 
articles that agreed that climate change is real and caused by 
man. And only 2 out of more than 10,000 that rejected human-
caused global warming. You can see his results on the screen.
    Secretary Moniz, you may not know this, but we took a vote 
on this issue earlier this year. Congresswoman Schakowsky 
offered an amendment that said greenhouse gas emissions 
threaten public health and welfare by disrupting the climate. 
That was the statement. The Republican members of this 
committee voted unanimously to reject that amendment. Just that 
statement. I have been in Congress for 40 years. This is my 
last year in Congress. And I have never seen just an 
embarrassing and dangerous disconnect between what scientists 
say and how this committee votes. On Monday, the 
Intergovernmental Panel on Climate Change, or IPCC, told us 
that climate change is happening today on ``all continents 
across the oceans.'' The world's leading scientists explain 
that unless we take significant steps to reduce carbon 
pollution now, ``climate change impacts are projected to slow 
down economic growth, make poverty reduction more difficult, 
further erode food security, and prolong existing and create 
new poverty traps.''
    The science of climate change is settled. Climate change is 
happening. It is caused by humans. And its impacts are both 
serious and real. And it is time for us to listen to the 
scientists and to act. I appreciate that we have a President 
who does listen to the scientists and is acting to address 
climate dangers. Under his Climate Action Plan, President Obama 
has committed to reducing our carbon pollution by 17 percent by 
2020 and has outlined a number of steps to do so. The President 
has committed to bend the post-2020 global admissions 
trajectory further still.
    The Department of Energy has a key role to play under the 
President's plan. The energy choices we make today will 
determine whether we address this threat or leave our children 
and grandchildren with a climate catastrophe.
    That means, Secretary Moniz, that you have one of the most 
important jobs in America. I view the paramount responsibility 
of the Secretary of Energy as advancing the Nation's response 
to the threat of climate change. That is your responsibility as 
well as EPA's. And I don't think you ought to be fighting a 
turf war with them, as some of our colleagues here suggest. 
Under your leadership, the Department of Energy is working to 
meet the climate challenge. DOE is developing the energy 
efficiency standards we need to cut energy waste and save 
people money. You are engaged in research, development, 
demonstration and deployment of advanced renewable energy 
technologies, cleaner vehicles, energy storage and a modern 
electric grid that delivers reliable clean energy to power our 
homes and businesses. And you are hard at work developing next 
generation pollution control technologies for our fossil fuel 
systems. These new clean energy technologies will protect our 
environment, create new jobs and grow our economy.
    Mr. Secretary, the latest IPCC report confirms that we have 
a choice. We could listen to the scientists and invest in the 
energy technologies we need for a prosperous clean energy 
future, or we could ignore the climate problem and suffer dire 
consequences. Mr. Secretary, I am confident that you will 
continue to help us choose the right path to a clean energy 
future. I look forward to your testimony and your continued 
leadership on these issues. Thank you.
    Mr. Whitfield. The gentleman yields back the balance of his 
time. At this time, having completed the opening statements, 
Secretary Moniz, we are going to recognize you for your 5-
minute opening statement. And once again, thank you for being 
with us.

 STATEMENT OF ERNEST J. MONIZ, SECRETARY, DEPARTMENT OF ENERGY

    Mr. Moniz. Well, thank you, Mr. Chairman. And--I should say 
chairmen Whitfield and Upton and ranking members Rush and 
Waxman. Members of the committee, I appreciate the opportunity 
to come here to discuss our budget proposal for fiscal year 
2015.
    The President I think makes clear through this proposal 
that the Department of Energy has significant responsibilities 
in the advancing the Nation's security--especially by 
maintaining a reliable nuclear deterrent and keeping nuclear 
materials out of the hands of terrorists, and for advancing the 
Nation's prosperity, in particular by supporting the 
President's all-of-the-above approach to energy and by helping 
to provide the foundation for the future of advanced 
manufacturing in this country.
    Mr. Whitfield. Mr. Secretary, if I may? I am sorry to 
interrupt you. Would you move the microphone just a little bit 
closer to you?
    Mr. Moniz. Oh, closer?
    Mr. Whitfield. Yes.
    Mr. Moniz. OK.
    Mr. Whitfield. Thank you.
    Mr. Moniz. Thank you. OK. So the Department of Energy's 
top-line discretionary budget request is $27.9 billion, a 2.6 
percent increase from fiscal year 2014. And in this constrained 
budget environment, again, I think this reflects some of the 
high-priority missions that we have responsibility for.
    I will discuss very briefly a few points along DOE's three 
major programmatic areas as we have organized them at the under 
secretary level, science and energy, which I understand will be 
the main focus of today's discussions, and a few words about 
nuclear security, and management and performance.
    On science and energy, the President's all-of-the-above 
energy strategy is driving economic growth, creating jobs while 
lowering carbon emissions. We are producing more natural gas in 
the United States than ever before. And for the first time in 
two decades, we are producing more oil at home than we import 
from the rest of the world. In fact, just yesterday, the EIA 
released some data showing that net energy imports in the 
United States now, which is about 13 quads, is the same as in 
1987, 30 years ago. So it has been a dramatic reduction. And in 
fact, more than a 10 percent reduction just from 2012 to 2013.
    We have also, at the same time, made remarkable progress in 
clean and renewable energy. In the last 5 years, more than 
doubled the amount of electricity from wind and solar, at the 
same time making the investments that enable coal and nuclear 
power to be competitive in a clean energy economy. We are 
aggressively advancing energy efficiency, bringing economic 
environmental and security benefits.
    In the last few years, we have seen technologies like LED 
lighting costs drop several fold, such that payback periods are 
now approaching one year, and along with that, tens of millions 
of units being deployed in the marketplace.
    The budget request is 9.8 billion, as the chairman said, 
for the science and energy activities, an increase of 5 percent 
for, again, advancing the all the above energy strategy, 
supporting the Climate Action Plan, continuing the quadrennial 
energy review focusing on energy infrastructure, and 
maintaining global scientific leadership.
    There are significant increases in several important 
applied programs. I will just say a couple words. In energy 
efficiency renewable energy, a 22 percent increase is proposed 
with focus areas in transportation, renewable technology, 
efficiency, advanced manufacturing. Office of Electricity: 
significant increase to support what we all see I think as 
important modernization of the grid, an enhancement of its 
resiliency in response to many threats that we are seeing. We 
are also building a strengthened emergency response capability 
as the lead agency for energy infrastructure under the 
leadership of FEMA in case of severe events.
    ARPE-E, which takes a unique entrepreneurial approach, we 
propose for a 16 percent increase. We would note that in its 
relatively brief existence so far there have been 24 startups 
coming out of the ARPE-E programs, and many, many other 
indicators of success. We also have created, as part of our 
reorganization, the Office of Energy Policy and Systems 
Analysis, mainly gathering policy elements from various program 
offices, but with a particularly critical responsibility for 
enhancing our analytical capacity and for advancing the 
Quadrennial Energy Review, looking at this country's energy 
infrastructure challenges.
    DOE science programs really are the backbone of the 
American research enterprise and the physical sciences, and we 
have proposed $5.1 billion for science. As one example, in 
conjunction with the NNSA, our National Security Agency, the 
Office of Science will lead an initiative to develop exascale 
computing platforms, the next stage in a historic DOE role for 
keeping this country at the leadership edge of high performance 
computing. And of course, the many facilities that science 
supports, light sources, Spallation Neutron Source, the future 
Facility for Rare Isotope Beams, all sustained nearly 30,000 
scientists in this country with cutting-edge activities.
    I mentioned cross cutting activities already, exascale, for 
example, and grid. One other one is subsurface science and 
engineering, where we find many energy issues involve 
subsurface science and engineering. We want to pull those 
together, make them more coherent, involve our laboratories as 
a system.
    In nuclear security, I will just end up by saying we have 
asked for 11.9 billion. I would say a highpoint there is that 
through an administration-wide process, we have firmly 
committed to the nuclear posture review approach to our nuclear 
deterrent, and that is stretched out a little bit because of 
budget constraints, but it is committed to as our direction 
there. In management performance, just emphasizing, and I think 
this committee would agree that, without improving our 
management performance, we will not be able to as effectively 
for sure execute our energy science and security missions. So 
this is a new focus under which we have moved environmental 
management to be a specific responsibility of that under 
secretary.
    I will just mention maybe from the point of view of a news 
item again, as you know we have had an issue at WIPP, our 
facility in New Mexico. I just wanted to emphasize first that 
there is no evidence of any significant exposures to people. 
But, obviously, we are shut down at the moment. But yesterday, 
two teams did enter the caverns, and we hope to move 
expeditiously towards a reopening.
    With that, I just want to thank you for your time and look 
forward to questions.
    [The prepared statement of Mr. Moniz follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Whitfield. Well, thank you, Mr. Secretary. Once again, 
we appreciate you being here. At this time, I will recognize 
myself for 5 minutes of questions. And while there are many 
broader policy concerns that I have, I do want to focus 
initially on the Paducah Gaseous Diffusion Plant, because there 
is so many--it is going through a transition down there.
    And one question I would like to ask you is this--of course 
communication between the State of Kentucky, the City of 
Paducah and the Department of Energy is vitally important. And 
with all the changes taking place, the Paducah site has not 
really had a director or a lead that is really focused on that 
one area onsite. And we have had some previous discussions 
about this. But could you share with us this morning whether or 
not you all do intend to appoint a person that would be 
responsible for that site and be responsible for good 
communication with the community and the State?
    Mr. Moniz. Yes. First of all, I appreciated also your 
intersession in helping us with those communications with the 
City and the State. My understanding is that we are in the 
process of hiring that person. I will--why don't I get back and 
check exactly on the status of that and get back to you 
promptly?
    Mr. Whitfield. But you do feel like----
    Mr. Moniz. We do want to have a dedicated site manager at 
Paducah.
    Mr. Whitfield. OK. Thank you, sir.
    Mr. Moniz. Yes.
    Mr. Whitfield. Thank you. Now, the fiscal year 2014 budget 
for the Paducah area, the cleanup and everything was around 
$265 million. And it is my understanding that not all of that 
money is going to be able to be spent this year. But it is my 
understanding that the Department of Energy would have the 
option of directing some of that additional money for cleanup. 
And as you know, with USEC coming to an end, a lot of people 
are losing their jobs down there. Could the Department of 
Energy--or are you all considering funneling some of that money 
for additional cleanup so that some of these people would be 
able to retain those jobs?
    Mr. Moniz. Well, Mr. Chairman, we are working to try to 
speed up the contract discussions. Typically, these large 
environmental management contracts, they are complicated. They 
are very long-term. They have very, very large contract 
amounts, are 12 to 14 months. We are hoping to get that down a 
little bit shorter so that we can have that turnover early in 
the fall, and we are working hard on that. That is I think the 
reason why we anticipate having some carryover funds. We are 
trying to exercise what we can this year. I understand the 
concerns. But we will have carryover funds for sure. So I think 
also in the context of our fiscal year 2015 request, I think we 
will have a strong program.
    Mr. Whitfield. You are referring to the IDIQ contract 
that----
    Mr. Moniz. Yes.
    Mr. Whitfield. And did I understand you to say that in 
September or did you----
    Mr. Moniz. September is when we are trying to push to get 
that contract concluded.
    Mr. Whitfield. OK. Well, of course, that remains a priority 
for all of us involved with this issue. So we do appreciate 
your focusing on it and expediting it as much as possible.
    Mr. Moniz. We were able to beat the schedule last year on 
another issue.
    Mr. Whitfield. Right.
    Mr. Moniz. Hopefully, we can beat the schedule this year. 
But we are trying.
    Mr. Whitfield. And also, in the fiscal year 2015, there is 
talk in the budget about transitioning the facility into a cold 
and dark state. And of course, we don't want it to be a cold 
and dark state, because we were more interested in 
decontamination and decommissioning of the facility. But your 
understanding, what is the definition of a cold and dark state 
for a facility like----
    Mr. Moniz. Well, I can't say that I have, to be honest, 
really focused on that. But I would say that it means I think 
we need to have the facility in a stable, safe condition 
without compromising the eventual D&D activities.
    Mr. Whitfield. Right.
    Mr. Moniz. Those would be the objectives, at least. I can't 
say that I could describe in technical detail what it means.
    Mr. Whitfield. Right. Right. But it is the goal to 
decontaminate and decommission rather than----
    Mr. Moniz. Certainly. Oh, yes, it does. That is certainly a 
requirement. Yes.
    Mr. Whitfield. Well, Mr. Secretary, thank you for helping 
clarify some of those issues. I appreciate that very much. And 
I don't know how much time you have. We may go to a second 
round if you have time. But at this time, I would like to 
recognize the gentleman from Illinois for 5 minutes of 
questions, Mr. Rush.
    Mr. Rush. I want to thank you, Mr. Chairman. Mr. Secretary, 
I do have a lot of questions that I want to cover. And I know I 
won't have the time to do it all this morning, so I will be 
submitting questions for the record. And I would like the 
Agency to get back to me as promptly as possible to an issue 
that I want to discuss today on both the minorities and energy 
initiative and also the publicly funded national research labs. 
Of the Agency's $27.9 billion budget request, what is the 
amount allocated to the Office of Economic Impact and 
Diversity, which is the Agency primarily responsible for 
enacting the Minorities and Energy Initiative both in terms of 
dollars and also in terms of percentage? Do you feel that this 
amount is adequately in terms of reflecting the priorities of 
reaching out and engaging minorities in the energy sector for 
both you and for President Obama, and can you do more? So those 
are the three questions.
    Mr. Moniz. Well, first of all, I think the budget for the 
economic development and diversity office is approximately $6 
million. I just want to clarify that in the budget, it shows a 
decrease. But it is not actually a decrease, because two 
functions were placed elsewhere. One is by law. We had to move 
the OSDBU office--I forgot the name--office of small--it is a 
small business office--I--the acronym, I have forgotten now 
what it stands for. But by statute, it turned out we had to 
move that outside and leave it as a coordinating office with 
the ED office under Dot Harris. The second thing is that there 
was a function placed in there, which the office was paying 
for, for the department wide ombudsman, which was really 
misplaced. So we put that in the management and administration 
office as a better place. So the budget for that office really 
has not been cut.
    Mr. Rush. So in your best estimates, the budget has flat 
lined to a degree--flat line----
    Mr. Moniz. I believe it is flat.
    Mr. Rush. Without increase--without an increase, is that 
what you are saying?
    Mr. Moniz. I believe it is flat. Yes. I think that is 
correct. And if I go on to discuss the Minorities in Energy 
Initiative, and by the way, I do want to say that, you know, 
the birth of that was in a hearing here last June when you 
raised the issue. I think it is off to a very, very successful 
start with the ambassadors. You know that very well, Mr. Rush. 
This is not on our budget, but, for example, the American 
Petroleum Institute, because of the initiative--and its 
director is one of the ambassadors--is having eight regional 
meetings to attract minorities into the oil and gas industry 
workforce. I personally went at the end of January to Hampton 
University and recruited the president, Mr. Harvey, to an 
ambassadorship. So we are promoting this, I think----
    Mr. Rush. Mr. Secretary, can you do more?
    Mr. Moniz. We can do more. And I would be happy to discuss 
with you how we could do more.
    Mr. Rush. All right. Moving on to the area of the public 
funded national research labs. How many publicly funded 
research labs are there, and are any of these labs managed by 
or operated by a minority?
    Mr. Moniz. We have 17 national laboratories. The----
    Mr. Rush. Are any of them operated by a minority?
    Mr. Moniz. Well, yes--I mean, they are operated by 
organizations. Let me say that I am dissatisfied frankly with 
the diversity in the upper-management ranks of these 
laboratories. And that is something that we have taken up with 
our lab policy counsels.
    Mr. Rush. When you--yes, when you speak specifically about 
Argonne and Fermi which are located in my home State--Argonne 
and Fermi, which are located in my home State, what are the 
percentage of minority engagements at Argonne and Fermi lab?
    Mr. Moniz. Sir, I will have to get back to you with that 
for the record, because I don't know those numbers.
    Mr. Rush. Right. Do you have----
    Mr. Moniz. I do know that the upper ranks of the 
management--we have inadequate representation.
    Mr. Rush. Do you have figures for any other of the other 17 
labs across the country?
    Mr. Moniz. No, but I would be happy to get you those 
demographics.
    Mr. Rush. Thank you very much.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, I will recognize the gentleman from Texas, Mr. Barton, 
for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here. You are the only cabinet secretary 
that goes longer between haircuts than me. So I appreciate 
that.
    Mr. Moniz. I didn't know I had to come here to get that 
repeated. But anyway----
    Mr. Barton. No. I need a haircut. So you make me look 
sheared, so to speak. I know this is a budget hearing. And I 
know we should be asking questions about the DOE budget. But I 
want to ask you a few more questions about LNG Exports given 
what has happened in the Ukraine and Crimea. This subcommittee 
has done a number of forums where we have had almost a complete 
panoply of forum representatives. And to a person, they have 
all said that they want the United States to export LNG, and 
they want to do it sooner rather than later. The situation in 
the Ukraine obviously gives credence to that. I believe 
President Obama, when he was in Europe last week or the week 
before last, made some comments that said that we should do 
that. Now, I don't want to say that in absolute certainty, 
because I don't remember exactly what he said. Your Agency, 
your Department is the Department that has to give the initial 
approval. You just approved one on I think February the 29th. 
So if that is possible, did we have a February the 29th this 
year? Any--in any event----
    Mr. Moniz. It was in March.
    Mr. Barton. March.
    Mr. Moniz. March.
    Mr. Barton. March 29.
    Mr. Moniz. Yes.
    Mr. Barton. I knew you would correct me. So you are right. 
March. March the 24th, actually. I was looking--any way, it is 
my fault. So it looks like when we read the approval documents 
that they are almost verbatim. And so my question is once you 
found that it is in the public interest for one of these 
projects, why does it keep taking so long to approve the next 
one? There are still 24 in the queue. Why couldn't we just get 
a big stamp and stamp them all approved and get on with it?
    Mr. Moniz. Well, there are a number of issues there. First 
of all, we do have these large dockets which do have specific 
comments with regard to different proposals. Secondly of 
course, as you know there is also the FERC process, which goes 
through the NEPA process on a secondary basis.
    Mr. Barton. I am aware of that.
    Mr. Moniz. And----
    Mr. Barton. You don't have to worry about that.
    Mr. Moniz. And----
    Mr. Barton. So that is not an excuse.
    Mr. Moniz. Well, no. But it is a fact. And right now, we 
have no proposals ready for that final declaration, because 
they are still in the NEPA process. Third is that the----
    Mr. Barton. But why would that impact the DOE process? I 
don't understand that. Somebody is getting ready to run for 
President in 2 years, but that doesn't impact my process of 
running for Congress this year. I mean, I don't understand why 
DOE going through----
    Mr. Moniz. Well----
    Mr. Barton. I mean, FERC going through the NEPA process 
makes it more difficult for you to give approval or 
disapproval.
    Mr. Moniz. My understanding certainly is that we cannot act 
on a final approval until the FERC process is complete.
    Mr. Barton. But you can do whatever you have been doing, 
this conditional approval?
    Mr. Moniz. Yes, so the conditional approvals, we----
    Mr. Barton. You have done 7, I think.
    Mr. Moniz. We do prior to the--typically prior to the FERC 
process, although I might say that now I think as the process 
has rolled forward, we are seeing some proposers filing with 
FERC prior to getting conditional approval. So this is an 
evolution that is happening that is----
    Mr. Barton. That is great information, Mr. Secretary.
    Mr. Moniz. Yes.
    Mr. Barton. But it is irrelevant to what your job is 
supposed to be. You have got 24 of these. And I am not trying 
to be argumentative. I happen to believe that you and I are on 
the same page.
    Mr. Moniz. Then----
    Mr. Barton. All I want you to do is say I agree with you, 
we are going to get on it, we need to do it more quickly, you 
are right, Congressman.
    Mr. Moniz. I----
    Mr. Barton. That is all you have got to do, and we go on to 
the next questioner.
    Mr. Moniz. I agree that we are systematically working 
through the applications. Right--the law requires us to do a 
public interest determination. That public interest 
determination has multiple features.
    Mr. Barton. All right. My time has expired.
    Mr. Moniz. It includes----
    Mr. Barton. You have successfully filibustered the question 
period. I want you to do me one--go back to your office this 
afternoon. It is that big office in the corner on the top floor 
of the Forrestal Building, unless you have moved it.
    Mr. Moniz. No.
    Mr. Barton. And read the seven applications that you have 
approved. And give me a report on the--any wording 
differentiation in any of those seven approvals. They are 
almost verbatim.
    Mr. Moniz. I would note for example in the last approval, 
the Jordan Cove, you will see a rather different discussion of 
international impacts in the public interest determination, for 
example.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, I would like to recognize the gentleman from California--
no, have you asked some questions yet?
    Mr. Whitfield. Where is Mr. Waxman? Who is next?
    Mr. Barton. Go to Mr. McNerney.
    Mr. Whitfield. At this time, I will recognize the gentleman 
from California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. Thank you for that reluctance, Mr. Chairman. 
Mr. Secretary, thank you for coming this morning. And I would 
like to talk a little bit about fusion energy for a few 
minutes, if you don't mind?
    Fusion energy, as you know, consists of releasing energy by 
fusing nuclei of small elements together. And fusion of--the 
fuel for fusion energy would be virtually unlimited. 
Radioactive waste produced by fusion reaction is less dangerous 
than radioactive waste produced from nuclear power. And fusion 
reactors would inherently be failsafe in their operation. Do 
you agree with those statements?
    Mr. Moniz. Well, failsafe in terms of certain kinds of 
accidents. Obviously, they can have malfunctions.
    Mr. McNerney. Right. OK. Thank you. Mr. Secretary, the DOE 
budget for fusion research is $416 million a year. Now, on the 
other hand, the fusion power supporters believe that fusion 
power could be practical in 10 years with a $3 billion 
investment per year. Do you believe that that is a realistic 
assessment?
    Mr. Moniz. I should probably insert at this point--so 
just--I can answer that question but----
    Mr. McNerney. Sure.
    Mr. Moniz. I am recused from dealing with the fusion 
program. So there may be some of these I will have to have my 
science office get back to you. But in terms of the statement 
just now in terms of a general objective, I think the 10-year 
estimate would certainly be viewed as optimistic by most 
scientists.
    Mr. McNerney. OK. Well, so how long do you think it would 
take then with the 400 and----
    Mr. Moniz. I wouldn't speculate. But for example, what is 
certainly part of the public discussion, again, I cannot make 
decisional statements on fusion. I believe, you know, the major 
international project currently going on doesn't even plan to 
get to ignition in, I don't know, quite a few years from now, 
at least a decade. And that would be many steps from that to a 
commercial plant.
    Mr. McNerney. OK. Fair enough.
    Mr. Moniz. Yes.
    Mr. McNerney. Do you think it is a--that is a good 
investment of American dollars in fusion research?
    Mr. Moniz. Again, as a general statement, I think we 
definitely should keep investing in fusion.
    Mr. McNerney. OK. We have fallen behind some of the other 
countries in that research area over the last decade or so.
    Mr. Moniz. Well, again, I think as--I am just going to my 
scientific background. I would say that we remain the leaders 
in many aspects of fusion. I think certainly in the large scale 
modeling and simulation of plasmas, I think we remain leaders. 
We are building many of the big components in terms of big 
magnets--superconducting magnets. So I think we are not so far 
behind, I would say in terms of our capacity. Obviously, we 
don't have a facility of the scale that is being built in 
Europe.
    Mr. McNerney. OK. Well, I am going to change the subject a 
little bit, if you don't mind. Last week, the President 
announced an interagency methane strategy to reduce emissions 
of that potent greenhouse gas. DOE will play an important role, 
along with the EPA and the Department of Interior. The strategy 
document states that the DOE will sponsor roundtable 
discussions with stakeholders about methane emissions. What 
does the DOE hope to achieve in those roundtable discussions?
    Mr. Moniz. I just might add for the agencies that U.S.--
that Agriculture is also a major player in that for different 
sources of methane. The Department of Energy--our focus is on 
data. And it is very much focused also on the kind of midstream 
and downstream systems. We had in the first of the roundtables, 
multiple constituencies, especially for that midstream and 
downstream, including, you know, companies, labor, 
environmental groups, et cetera. The big message for me in that 
meeting was the surprising degree of agreement in terms of a 
path forward and how much actually companies are already doing 
in the context of renewing old infrastructure and 
simultaneously addressing methane leaks.
    Mr. McNerney. Are there particular technologies that the 
DOE would want to support in this area?
    Mr. Moniz. For example, we very much want to keep pushing--
and ARPE-E will be pursuing this--really high quality, lower 
cost detectors and sensors so that we can know where the leaks 
are.
    Mr. McNerney. Performance based standards?
    Mr. Moniz. Right.
    Mr. McNerney. Very good.
    Mr. Moniz. Yes.
    Mr. McNerney. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. The gentleman yields back. At this time, I 
will recognize the gentleman from Louisiana, Mr. Scalise, for 5 
minutes.
    Mr. Scalise. Thank you, Mr. Chairman, appreciate you having 
the hearing. And, Secretary Moniz, appreciate you being here to 
talk about the Department's budget and obviously the policies 
that then go into the funding that would come from that budget. 
When I look at your budget, you are requesting a $715 million 
increase over where you currently are. And, obviously, we are 
trying to get control over spending in Washington. Washington 
is spending more than we take in. We are actually trying to go 
department by department to actually start trying to get 
Washington to live within its means, meaning to spend less than 
it is taking in--less than it is spending right now, because it 
spends more than it takes in. So when you ask for a $715 
million increase, I know you look at some of the agencies, and 
you have a 22 percent increase requesting for renewable energy. 
And we are already spending a lot of money. It is not like 
there is not money being spent on renewable energy. This 
committee has had a lot of hearings on some of those 
boondoggles things, like Solyndra and others. And when you look 
at a request like this--and you are asking for 715 million 
more. Somewhere in the neighborhood of 250 million or more of 
that money is going to have to be borrowed from countries like 
China. I mean, do you factor that in when you are asking us for 
this kind of increase that a large portion of that is money 
that is not just sitting around somewhere? It is literally 
money that is going to be borrowed with that bill being sent to 
our kids?
    Mr. Moniz. Well, first of all, I do not subscribe to the 
boondoggle. We can come back to that. But----
    Mr. Scalise. It is the level of the expenditure----
    Mr. Moniz. With regard to the budget--clearly, the 
administration budget is consistent with the underlying budget. 
So it obeys the cap. It is essentially flat dollars from fiscal 
year 2014. Within that overall budget, the President chose to 
give greater emphasis to some of our programs, both in energy 
and in nuclear security.
    Mr. Scalise. And I know we talked about this yesterday at a 
separate hearing, but, you know, the Secretary of State had 
made comments that global warming and this climate change 
agenda is a bigger threat to American than terrorism. I would 
dispute that. I don't know--I won't ask you for that reaction. 
But I do want to ask you because you did touch on the 
President's supposed all-of-the-above energy strategy, and I 
know your Agency is tasked with coming up with the strategy for 
the country. When we talk about the President's approach to 
energy, you know, I know he talks about ``all of the above,'' 
but when you look at the numbers, it just doesn't back up what 
he says.
    And specifically, I want to talk about energy production on 
Federal lands. I was able to get this information from the 
American Enterprise Institute. They do some really good 
research on a lot of fronts. But on energy production, they 
actually have charted how--this is actual change in fossil fuel 
production over the years. And so they are showing--you know, 
especially when you look from 2009 to today, a dramatic 
increase in production on State and private lands, which I know 
the President likes taking credit for. But when it comes to 
areas where the Federal Government actually has authority, on 
Federal lands, you have a 15 percent decrease. So you have a 
dramatic difference in how our energy portfolio is playing out 
in the real world. You are seeing State and private land 
production dramatically up. But--on Federal lands, because of 
this administration's policies, you actually see a dramatic 
decrease in energy production.
    And so when the President talks about an all-of-the-above 
strategy, he is not carrying that out in his policies. His 
policies are actually hurting production on Federal lands. 
Fortunately, we have got private lands in States that are 
making up the difference. But the Federal Government is going 
after them, too.
    So I want to ask you, when it comes to this idea of an all-
of-the-above strategy, which I fully embrace, President Obama 
does not embrace and the numbers back that up. But when you see 
some of his other agencies, like EPA and Department of 
Interior, de facto carrying out a different strategy, how much 
interaction do you have, as Secretary of Energy, trying to push 
for an energy strategy on one hand, but then having agencies 
like the EPA trying to shut some of that production down? Do 
you all try to coordinate and say hey, we want an all-of-the-
above strategy? And if you really mean it, are you going to 
agencies like EPA and saying stop this war on coal that is 
killing jobs, killing energy. Stop this war on--you know, they 
are attempting to have a war on hydraulic fracturing to shut 
some of that down. I mean, do you all have any interaction on 
that?
    Mr. Moniz. We certainly do. I would like to note first of 
all that I feel we do have an all-of-the-above strategy. And it 
is a very strong one. And if I----
    Mr. Scalise. What do you say about these numbers though? 
The numbers don't back it up.
    Mr. Moniz. So if I may make two comments, sir?
    Mr. Scalise. Sure.
    Mr. Moniz. Respectfully. The first, the investments in 
these different areas, it is not only these discretionary 
numbers in the fiscal year 2015 budget. If you look at coal, we 
have $6 billion in CCS projects that are coming on. We have an 
$8 billion loan guarantee program for fossil energy across the 
board. We just did a loan for nuclear. The----
    Mr. Scalise. You are talking about money. But I am talking 
about the results.
    Mr. Moniz. And----
    Mr. Scalise. The results are that production is down on 
Federal lands.
    Mr. Moniz. And----
    Mr. Scalise. Do you dispute that?
    Mr. Moniz. And if you look at that specific issue, I might 
observe that a major driver of that is geology. The----
    Mr. Scalise. Do you dispute that it is down, production is 
down on Federal lands?
    Mr. Moniz. No, those are data.
    Mr. Scalise. Right. That is correct.
    Mr. Moniz. However, unconventional reservoirs are not in 
the traditional areas. The market has moved to the Marcellus 
Shale, to the Eagle Ford, to the Bakken. So is the----
    Mr. Scalise. And I know I am out of time. I appreciate 
that. And I yield back the balance of my time.
    Mr. Whitfield. At this time, I would like to recognize the 
gentleman from California, Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman. Secretary Moniz, that 
was an interesting line of questioning. It was more trying to 
provoke you. Are we not following an all-of-the-above strategy? 
It seems to me you were outlining a lot of different areas 
where we are pursuing energy development. I assume that 
development on public lands is just a small part of the overall 
energy areas that we are concerned----
    Mr. Moniz. Well, bottom line, yes. We are pursuing an all-
the-above strategy. And I think our energy system is showing 
it, even as we have reduced carbon emissions at the same time.
    Mr. Waxman. I tend to think that the Republicans don't want 
an ``all of the above,'' they want a strategy to continue to 
rely on fossil fuels, especially coal. And then we talk about a 
war on coal. I just can't understand this argument, the war on 
coal. Coal is losing out, not because of any Government 
actions. It is losing out because of market forces. Utilities 
are finding it less expensive to use natural gas. And even 
though we subsidize coal, but not requiring them to pay for the 
external costs of their use of cheap coal, they can't compete 
at the present time. But they are also the leading source of 
carbon emissions.
    I mentioned in my opening statement the intergovernmental 
panel on climate change. Their report should be a wakeup call. 
Everyone is--the world's leading scientists are telling us 
everyone is going to be impacted by climate change, no country 
or region is immune. If we listen to our scientists and invest 
in the clean energy technologies, that will put our country and 
the world on the path to a sustainable and prosperous energy 
future. That seems to be the course we should be taking, not 
just no action which is what we hear more often than not from 
the leadership on this committee.
    As a scientist, I would like to ask you about the 
consequences of inaction. Last year, DOE examined the impacts 
of climate change and what it would mean for energy 
infrastructure as a result of higher temperatures, drought, sea 
level rise, extreme weather events. What did DOE find?
    Mr. Moniz. I missed the last part.
    Mr. Waxman. Well, I wanted to know what DOE found in terms 
of the impact of climate change on energy infrastructure.
    Mr. Moniz. Oh, I see. Um-hum. Um-hum. Yes. So the risks and 
vulnerabilities report that you are referring to certainly lays 
out rather dire consequences for our energy infrastructure. I 
might add the President, in the Climate Action Plan, of course, 
elevated adaptation and resilience of energy infrastructure to 
a very high level, precisely anticipating what the report said 
this week that we are seeing the consequences and they are 
going to get worse.
    Mr. Waxman. Um-hum.
    Mr. Moniz. And prudence requires us both to try to mitigate 
further consequences and to adapt as well.
    Mr. Waxman. But let me ask you, if we have sea levels 
rising and floods and storms and wildfires, I don't----
    Mr. Moniz. Right.
    Mr. Waxman. That is going to put coastal and inland energy 
facilities at risk, among others. Droughts will impair power 
plant cooling systems, increase the risk of shutdowns.
    Mr. Moniz. Um-hum.
    Mr. Waxman. Higher temperatures will put stress on our 
electricity systems and reduce the efficiency of generation and 
transmission infrastructure. If all those things happen, aren't 
we talking about an all-of-the-above strategy of ignoring 
climate change at our own peril?
    Mr. Moniz. Yes. And they have all happened already. We have 
had power plants shut down because of warmer waters, for 
example.
    Mr. Waxman. In the west, climate change is expected to 
decrease the amount of snow pack. And we are already seeing in 
recent years in California a problem. What effect is that going 
to have on water availability for energy generation, 
agriculture and drinking water?
    Mr. Moniz. It would be a tremendous impact. And, again, it 
is already there. We are seeing it. The Colorado River, as you 
know very well, is in a very difficult situation after years of 
drought.
    Mr. Waxman. Climate change is going to impact everyone, but 
it won't impact everyone equally. Some in the coal industry are 
engaged in a publicity campaign to convince Americans that the 
key to addressing poverty in the world's poorest countries is 
to get them to use coal. I find this deeply cynical. In fact, 
Secretary Moniz, didn't the IPPC find that poor people and poor 
countries will be hit hardest by climate change? And wouldn't 
uncontrolled burning of coal exacerbate these impacts?
    Mr. Moniz. Well, increased carbon emissions in general 
would, of course. And you are certainly correct that the 
poorest societies are the most vulnerable.
    Mr. Waxman. Well, it just strikes me that we are whistling 
past the graveyard when we hear people talking about how the 
war on terrorism is something that we ought to pay more 
attention to than climate change. You know, you got to pay 
attention to problems. And the big, huge problem that is being 
ignored on this committee is the problem of climate change. And 
I hope that will change, because we do have a choice to make. 
Thank you, Mr. Secretary.
    Mr. Moniz. I agree.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, I will recognize the gentleman from Texas, Mr. Hall, for 
5 minutes.
    Mr. Hall. Thank you, Mr. Chairman. And, Mr. Secretary, I 
thank you for being here. It is good to see you again.
    Mr. Moniz. Good to see you.
    Mr. Hall. I want to touch on what is going on in Russia and 
the Ukraine a bit, and also a little bit from what we have been 
talking about. But what--I know that crisis must have 
influenced your decision in making with respect to LNG Exports. 
And I understand Russia has recently raised the price of 
natural gas to Ukraine by 40 percent. It seemed like the 
chairman of Energy and Commerce touched on that a moment ago. 
Do you think--at what point are delays going to deny the 
private sector the ability to export LNG negatively? How does 
that impact job creation here in our country?
    Mr. Moniz. Well, sir, again, the public interest 
determination that we are required to make by law has us 
balancing various factors. The international situation is 
certainly one of them. And that was noted in our last Jordan 
Cove conditional approval. But also of course, very paramount 
is the impact on domestic markets and manufacturing. And as you 
know, many in the manufacturing community remain very concerned 
not about having no exports, but about going too fast. So we 
are in a situation of balancing that. We have to look at the 
cumulative impacts of exports. I might add, you know, there is 
this view of somehow not doing enough or something. But I might 
add----
    Mr. Hall. Are delays----
    Mr. Moniz. But I might add that, so far, the conditional 
approvals--again, we all know that gas will not flow for 
several years yet, except for the first project. But the amount 
of approval so far, 9.3 billion cubic feet per day, is almost 
equal to the amount currently exported by the world's biggest 
exporter by far, Qatar. So what we have approved already puts 
us essentially at the top of the export list. So this is not a 
small amount.
    Mr. Hall. Well, I want to get back to offshore situation. 
In December 2012, Congress passed, and our President signed 
into law, the Deepwater Ports Act, containing authority for DOE 
to create a similar and a simultaneous process for offshore 
projects that would be permitted under the Department of 
Transportation Maritime Administration, not for--and the land-
based projects would continue under FERC. But from what I have 
been told, and I guess what I understand, the DOE is not 
complying with the 2012 law change, allowing non-FERC offshore 
projects. Is that true?
    Mr. Moniz. Well, I don't believe so. But I will look into 
this, Mr. Hall. Certainly, I know there it is a different 
process using MARAD.
    Mr. Hall. And if it is, what seems to be the holdup?
    Mr. Moniz. My understanding is that--and, again, I will 
have to get back to you on this in detail. I am sorry.
    Mr. Hall. All right.
    Mr. Moniz. But I think they address----
    Mr. Hall. If you would----
    Mr. Moniz. I will do that. Yes.
    Mr. Hall. I don't know how much time--I can't see that sign 
too good. But I have heard from companies that are ready for 
their permits to be approved and would be able to export LNG 
this year. They have global customers just waiting for these 
projects to move forward, I am told. And the sooner we do this, 
Mr. Secretary, the better it is going to be for our economy, I 
think. And the faster we can provide stability in uneasy parts 
of the world, like the Ukraine that I mentioned to start with, 
I would appreciate you also looking into that and giving me 
some information on it.
    Mr. Moniz. Yes.
    Mr. Hall. I yield back my time.
    Mr. Moniz. Thank you. May I add one comment on that?
    Mr. Hall. Yes, sir. Please.
    Mr. Moniz. Just to note that in a certain sense, we have 
already had some kind of shadow exports in the sense that as 
you well know 5, 6 years ago, there was the expectation of 
major LNG imports to the United States. Our not having those 
imports has had those cargoes go elsewhere, including to 
Europe.
    Mr. Hall. And we have European allies that are losing their 
bargaining power with Russia.
    Mr. Moniz. Yes. Last week, in fact it was announced in 
Europe--and Tuesday--Wednesday--what is today? Yesterday, there 
as a meeting in Brussels. And we are going to have a meeting of 
the G7 energy ministers to look at our collective energy 
security.
    Mr. Hall. All right. And I thank you. And I yield back, Mr. 
Chairman. Thank you.
    Mr. Whitfield. The gentleman yields back. At this time, I 
will recognize the gentleman from New York, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair. Mr. Secretary, thank you 
for your tremendous leadership over at DOE. I am very pleased 
to see the administration's request for an increase in the 
energy efficiency renewable energy account. While I know you 
were just criticized for that, I for one am very pleased with 
that outcome for many reasons, including the promising 
opportunities for clean energy, improvements in energy 
efficiency, domestic manufacturing and certainly for 
modernizing the grid and making it more secure and resilient.
    One of the key technologies that will enable much of this 
is of course energy storage. I firmly believe if we can make 
better batteries and energy storage systems, we will advance in 
many of the areas more expeditiously in those areas that I have 
just mentioned.
    I know this area of research and development is part of the 
vehicles technology work at the Department of Energy and that 
you are doing it very well. How close are we to getting energy 
storage systems that will enable us to rely more heavily with 
the opportunity for storage with our solar and wind power?
    Mr. Moniz. Well, if I start with the vehicle storage that 
you mentioned, we should note that costs per kilowatt of 
storage have dropped by a factor of two in about 4 years, which 
is very encouraging. We need another factor of two or three to 
really get to the cost point of a major commercial market, 
although we are seeing tremendous progress. We did have almost 
100,000 plug-in hybrid sales last year, for example, double 
2012. So that is looking very promising over the next, say, 10 
years.
    On utility scale storage, we produced a report. If you 
haven't seen it, we would be happy to provide it, on utility 
scale storage a few months ago. Let us get that to you if you 
haven't see it. We have a ways to go to reach the cost points 
that one will need. We did have a budget increase request for 
fiscal year 2015.
    Mr. Tonko. Right. And I know that GE in my district is 
working on advanced battery manufacturing that will address 
storage capacity for renewables.
    Mr. Moniz. Yes.
    Mr. Tonko. Does DOE have some demonstration projects 
underway with these systems?
    Mr. Moniz. I am not personally aware, but I will check back 
on that. I am just not aware, Mr. Tonko.
    [The information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tonko. OK. As you well know, the electric generation 
and transmission systems that make up the grid are undergoing 
tremendous changes due to many factors, including an increased 
deployment of distributed generation, retirement of old 
generating plants, shifts in the areas with electricity demand, 
and certainly shifts in fuel mix, to name a few. I believe 
energy storage could play an important role in a newly designed 
grid that is more flexible, resilient and efficient. But these 
developments will also challenge the traditional financing 
model for utilities. Is the Department looking at both the 
technical and non-technical barriers to deployment of clean 
energy technologies, and the challenges that--the challenge 
that is presented to our current grid infrastructure and 
traditional financing models?
    Mr. Moniz. Yes. That is a very important point. Thank you. 
We are looking at this in a number of ways. In particular, 
again, the Quadrennial Energy Review for this year, is entirely 
focused on the transmission, storage and distribution of 
energy, both electricity and fuels. It is a key issue. Clearly, 
there is technology involved with the grid making phase or 
measurements, et cetera. But a lot of it is policy, including 
State policy as to how one does that. The other point I would 
mention is--and again, you are completely on the mark as far as 
I am concerned--is business models are challenged as we look 
forward to distributed generation, smarter grids.
    But also, I might add, the anticipation that we will 
continue to have no or very, very modest demand growth as our 
efficiency actions take hold. And so we are trying to think 
through how do we see a transformation happening in a period 
of, let us say, flat demand.
    Mr. Tonko. Um-hum. In your testimony, you also talked about 
the impact on the utilities with experiences like Hurricane 
Sandy in New York. Given our recent experiences and the 
prospect of more storms of this type as a result of climate 
change, is this something the administration sees as a key 
component of climate adaptation?
    Mr. Moniz. Absolutely. And we have in our budge, in fact, a 
proposals for increasing our emergency response capacity that 
we exercise under FEMA. That would include, for example, 
setting up an emergency response room for energy 
infrastructure. And it also would be a good investment to have 
a DOE person assigned to each of the FEMA regions so that the 
energy issues are understood upfront, and that can cut time out 
from any response to an emergency.
    Mr. Tonko. Thank you, Mr. Secretary.
    Mr. Moniz. Thank you.
    Mr. Tonko. And I thank you for your efforts. Mr. Chair, I 
yield back.
    Mr. Whitfield. At this time, I recognize the gentleman from 
Illinois, Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. Mr. Secretary, on 
July 31 of last year, you testified before this committee, and 
you said, and I quote, ``We had made very clear we follow the 
law. The law will be determined by this Court decision that we 
are all awaiting. And if it directs the NRC to pick up the 
license, we will do our job to support that, given 
appropriations.'' Your quotation. On November 19 of last year, 
the DC Circuit Court observed that the DOE is not following the 
law, noting that DOE's current strategy, and I quote, ``is 
based on assumptions directly contrary to the law.''
    The Court ordered you to, and I quote, ``submit to Congress 
a proposal to change the fee to zero until such a time as 
either the Secretary''--that is you--``chooses to comply with 
the Act as it is currently written, or until Congress''--that 
is us--``enacts an alternative waste management plan.''
    Does the administration have any plans to resume work on 
Yucca Mountain and comply with the law, which is the Nuclear 
Waste Policy Act, as it is currently written?
    Mr. Moniz. Well, first, of course, we did submit the letter 
to the Congress on I think January 3 on the--
    Mr. Shimkus. Well, the question is, does the administration 
have any plans to resume work on Yucca Mountain and comply with 
the Nuclear Waste Policy Act as it is currently written--as it 
is currently written?
    Mr. Moniz. Yes. Secondly----
    Mr. Shimkus. What is the answer?
    Mr. Moniz. In terms of the Court decision with the NRC, of 
course. They have resumed their activity. We are supporting 
that as I said we would. So we will in fact probably have our 
technical----
    Mr. Shimkus. Well, I am going to follow through, because I 
think we have got questions and testimony in your budget 
submission that adequately will prove that you are not 
complying and following with the law. The administration's 
budget indicates the need for legislation to carry out your DOE 
strategy for spent nuclear fuel management, especially 
considering it is based on assumptions directly contrary to 
law. Is the administration going to propose legislation?
    Mr. Moniz. I would have to go consult with my colleagues on 
that. I am not aware of anything at the moment.
    Mr. Shimkus. So let me get this straight. The 
administration doesn't like the existing law and is choosing 
not to execute it. So the administration wants Congress to 
write a new law that it might like better, but won't propose to 
Congress what that new law should look like? And in the 
meantime, you want to keep spending taxpayer's money on your 
strategy, even after the DC Circuit Court noted that it is 
based upon assumptions directly contrary to law, and has 
directed DOE--that is you--to stop collecting the nuclear waste 
fees from electricity consumers. If the administration won't 
follow the law on the books, why should we have any confidence 
that you will follow a new law?
    Mr. Moniz. First, I would like to note that as was stated 
publicly in a Senate hearing, I did in fact work with the 
committee in terms of shaping a proposal----
    Mr. Shimkus. Mr. Secretary, this is a budget hearing----
    Mr. Moniz. And----
    Mr. Shimkus [continuing]. And what we are trying to find 
out is why you are not submitting money to comply with the law.
    Mr. Moniz. And----
    Mr. Shimkus. And by not submitting money in your proposed 
budget, in conclusion, you are directing your Agency to not 
follow the law.
    Mr. Moniz. If I may add, I am also happy to work with this 
body to formulate any bill. Secondly, we have more than 
adequate funding right now to do all the responses that might 
be called for from the NRC to support their process. As I said, 
we expect our first report to be submitted very soon, probably 
the end of this month. And, third, our budget request is for 
all activities, which are authorized under the Nuclear Waste 
Policy Act.
    Mr. Shimkus. In the context of DOE's assurances that it 
would follow the law, you, DOE, has repeatedly committed to 
this committee that DOE would honor the NRC's November 19 
Order, both in correspondence and in hearings, including your 
testimony that I noted earlier. As recently as January 9 letter 
to this committee, DOE stated it would honor NRC's request, 
complete a groundwater supplement to Yucca Mountain EIS. 
However, on February 28, you, DOE, notified NRC that it would 
not prepare the EIS supplement. Why did DOE change its mind 
over those seven weeks, and was your commitment to this 
committee even a factor in that decision?
    Mr. Moniz. Again, the core activity that we need to do for 
NRC is updating the technical issues on groundwater. The--
    Mr. Shimkus. I have 15 seconds. Let me just go to a 
statement you have in your testimony.
    Mr. Moniz. Yes.
    Mr. Shimkus. You say, ``and a consent-based citing.'' Where 
in the Nuclear Waste Policy Act is there a--any--the words 
anywhere ``consent-based citing''? Where is it in the law?
    Mr. Moniz. I would have to go back to my general counsel to 
answer that question.
    Mr. Shimkus. Oh, come on, Mr. Secretary, you know that 
consent-based citing is not in the Nuclear Waste Policy Act. 
And that is why your job is to comply with the laws of the 
land, and you continually thwart doing that. I yield back my 
time.
    Mr. Moniz. Well, we believe we are complying.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, I recognize the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman. And, Secretary Moniz, 
welcome you back to our committee. I also want to thank you for 
your recent trip to Houston and speaking to our Senator 
conference there. The budget we are discussing today has a 
significant impact on the activities you witnessed in Houston.
    I want to start by asking you about pending LNG export 
applications. On March the 24th, the DOE approved the seventh 
non-FTA application for the Jordan Cove energy to be located on 
the west coast. This approval came within six weeks after the 
approval of the Cameron location from Louisiana. The--in 
October of 2013, the Government was shut down for 17 days. The 
Department repeatedly stated due to the shutdown, the 
operations of the Agency significantly slowed down.
    My first question is has the Department fully recovered and 
staffed up from the delay, and does the fiscal year 2015 budget 
include this?
    Mr. Moniz. Well, yes. We are fully operational.
    Mr. Green. OK. Does the six week approval of Jordan Cove 
reflect this recovery?
    Mr. Moniz. Well, each license is a little bit different in 
terms of the timing. But I think if you look historically, you 
can see what the timing has been post-shut down.
    Mr. Green. OK. Will the Department continue to move at this 
pace?
    Mr. Moniz. Well, again, I cannot make a prediction on any 
individual application. But our process, as you know, is well 
known. It has been very transparent. Not everyone is happy with 
it apparently, but it is a pretty transparent process. And we 
have managed to now to get through--well, in my tenure, I think 
5 of these licenses.
    Mr. Green. Once FERC issues the environmental assessment, 
what steps or analysis does the DOE take with respect to the 
final issuance of the non-FTA's work permit?
    Mr. Moniz. Well, when it comes back to the Department, then 
we obviously look at the NEPA statement. There is a decision to 
be made as to whether any other analysis is required. But that 
is something that we haven't faced yet, at least I haven't 
faced yet. But--so we are expecting to get some of these NEPA 
analyses back from FERC this spring.
    Mr. Green. Well, and you know the history of the--we first 
thought we were going to import LNG in '05. And now we are 
using that '05 law to export it. And there is I guess some 
interest in expanding exporting, and there is legislation to 
consider it.
    Mr. Moniz. Um-hum.
    Mr. Green. But the Department is actually, you know, 
approving these permits. And there will still be a--I think the 
first one probably won't be able to export until sometime next 
year, which is a Cheniere facility in----
    Mr. Moniz. End of next year.
    Mr. Green. End of next year.
    Mr. Moniz. Um-hum.
    Mr. Green. So even if we approved all of these permits now, 
that natural gas--that LNG probably wouldn't get to someone. 
And my concern is yesterday I met with a number of German 
industrialists who would like to buy our natural gas. The 
problem is most of those permits that have been issued, and the 
ones that are on the--in line are actually contracted to send 
that LNG to Asia. And I asked them, I said if you all want to 
get in line, you know, you don't build an LNG permit unless you 
can have some customers for it. And I know a lot of these 
companies would like to have the customers in Europe as well as 
Asia. So--but any way, I appreciate that. So----
    Mr. Moniz. May I just comment, if----
    Mr. Green. Sure.
    Mr. Moniz. That the first license that was granted, the 
Cheniere project that you mentioned to export at end of next 
year, they do have European companies. In fact, they just 
announced one with a European company contracting for the 
volumes. But I want to emphasize European companies does not 
necessarily mean they will deliver the cargoes to Europe.
    Mr. Green. Well----
    Mr. Moniz. That is up to those companies to decide.
    Mr. Green. That is true. Thank you. The carbon capture and 
storage is constantly discussed in the context of use and the 
possibility to be used as carbon control technology under EPA 
rules for utilities and refiners. The problem is that it is 
still too expensive commercially to be used. This year, the 
Department's budget was reduced for carbon capture and storage 
by 40 percent. Does this reduced funding level indicate 
Department believes CCS is commercially viable?
    Mr. Moniz. No, I wouldn't reach that conclusion or the 
opposite conclusion, either. I mean, I think we are continuing 
to move forward with these projects. All the technologies have 
been used in a commercial context. Clearly, as with any of the 
new technologies, renewables as well, our job is to continue to 
work on cost reduction across the board.
    Mr. Green. Well, and I think we probably disagree a little 
bit on commercially, you know, cost effective. But I know we 
would like to do it. Mr. Chairman, I have another question I 
would like to submit on American manufacturing. And I support 
that in the President's budget recommending a 69 percent 
increase in advanced manufacturing funding. And I would hope we 
could have a response from the Department. Thank you. And I 
yield back my time.
    Mr. Whitfield. That will be given to the Department for 
response. At this time, I recognize the gentleman from 
Nebraska, Mr. Terry, for 5 minutes.
    Mr. Terry. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here today. I noted in the budget that the 
lowest sub-agency or department--lowest funded is the electric 
delivery and energy reliability. And so could you give me 
quickly the mission statement of that sub-agency, electric 
delivery and energy reliability?
    Mr. Moniz. It has two--I would say two principle roles. One 
is to develop and--in the Recovery Act period, to also deploy 
critical technologies for 21st century grid modernization. So 
for example, they did a tremendous amount in terms of doing 
phase measurements to understand stability of the grid, working 
with the utilities and ISOs, actually. The second area is the 
one that I did mention earlier on strengthening emergency 
response capabilities. So the principle organization for our 
work on emergency response under FEMA is in that office.
    Mr. Terry. Can you tell me how this Department or DOE then, 
on reliability and delivery, works with FERC and--I am sorry, 
EPA, or do they?
    Mr. Moniz. Well, obviously, we all have different 
responsibilities. We certainly coordinate. As an example, 
Acting Chairman LaFleur from FERC has come over twice for us to 
discuss the risks that have been very prominent recently around 
physical attacks on infrastructure.
    Mr. Terry. Yes. And that is going to be my next question.
    Mr. Moniz. OK. So----
    Mr. Terry. But how about with EPA?
    Mr. Moniz. And with EPA, we have many, many discussions. 
Often, what we do is provide kind of technical--underpinning 
technical support in areas that they are considering. We 
collaborate on things like the interagency methane strategy, et 
cetera.
    Mr. Terry. Yes, the methane strategy is an interesting one, 
too. Now, I will disagree slightly in part with Mr. Waxman on 
market forces being simply prices, because sometimes energy 
feed stock sources are regional. For example, Nebraska, being a 
couple-hour train ride for Powder River Basin coal, and so 
therefore Nebraska's heavily reliant on that level of coal. But 
it appears that some of the rules that the EPA is promulgating 
would force some of those smaller, older power--coal-fired 
power plants to spend more than the building or facility is 
worth to change to natural gas, or close. So I want to know if 
the electric delivery and energy reliability department sub-
agency is working with EPA to figure out reliability when we 
have large gaps in production electrical generation in States 
like Nebraska if these rules become permanent?
    Mr. Moniz. I would say that there are three places in the 
Department that address these kinds of issues.
    Mr. Terry. All right.
    Mr. Moniz. I mean, one of course is EIA just on a purely 
data basis.
    Mr. Terry. Right.
    Mr. Moniz. The Office of Electricity, as we mentioned. But 
the third, and in some sense maybe the most active at the 
moment in the way you are mentioning is the Energy Policy and 
Systems Analysis Office, because in this Quadrennial Energy 
Review, in which they play a key role, this whole question of 
reliability and resilience of energy infrastructure is the 
focus area for this year.
    Mr. Terry. OK. And in that regard, and what happened in 
California, the Department, do they do a risk assessment on the 
vulnerability of the powered grid, either by an attack that 
occurred out in California, or even at a higher level that 
seems to be the rage in a lot of TV shows, EMPs?
    Mr. Moniz. Well, on the first part, we have worked together 
with Homeland Security and State agencies, the Deputy Secretary 
in particular. We have had 13 regional meetings to address the 
issues of physical security. We work with utilities very 
closely. The utilities have done probably more than has been 
acknowledged in the press already, but there is a ways to go. 
The last of these meetings was just a week ago Friday, in fact, 
in New York. That was the last of the 13 meetings. EMPs is on 
the screen.
    In our look at resiliency of infrastructure, both 
electricity and fuels, we are trying to start an analysis based 
on integrated sets of risks. So it is extreme weather. It is 
cyber. It is physical. It is EMPs. And it is the 
interdependencies of infrastructures as a risk in and of 
itself.
    Mr. Terry. Yield back.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, I will recognize the gentlelady from California, Ms. 
Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman. And thank you, 
Secretary Moniz, for being here today for your testimony. I am 
a longtime supporter of the Department of Energy's efforts to 
develop clean, renewable energy technologies. And of the many 
renewables out there, wind and solar are obviously the furthest 
along. But there are some other promising renewables in the 
works, including marine and hydrokinetic or MHK technologies.
    As you know, Federal investments are crucial to advancing 
these technologies to commercial viability. And I will quote 
the DOE, as you stated in your 2015 budget justification. ``DOE 
plays a critical role in MHK technologies because of their 
nascent stage of development, which is similar to that of wind 
and solar technologies 20 years ago.
    I have three questions around this topic, pretty specific 
or brief, if you will. Could you expand upon this point 
briefly? Why is DOE's involvement so important for developing 
these technologies at this early stage?
    Mr. Moniz. Well, I think as you said, as with others, the 
early stage is very hard to attract private sector funding, at 
least if it is not leveraged with some public funding.
    Mrs. Capps. You can recall that I--perhaps I can--that I 
raised this issue with you last September during a hearing as 
well. And you responded by saying that DOE was looking for ways 
to increase support, just as you just did, for what you 
referred to as these forgotten renewables, if you will. Given 
this perspective, I was puzzled to see a 25 percent decrease 
for MHK in DOE's budget request this year. This was 
particularly troubling when compared to the 20 percent increase 
for the Energy Efficiency and Renewable Energy, EERE, office 
overall. So what is with this divergence? Why did the 
relatively small MHK budget get such a sharp reduction?
    Mr. Moniz. Well, we did increase in terms of the other 
renewables, geothermal and in water.
    Mrs. Capps. Yes. Yes.
    Mr. Moniz. Within water, what the program did was rebalance 
because it was viewed as the relatively near term major micro-
hydro opportunity. So they rebalanced. But, you know, I have 
said already I am happy to reexamine the balance of that with 
Members who are interested.
    Mrs. Capps. I appreciate that, because I would like to 
question, you know, and say I like the old balance before. Some 
of my research companies do as well. It wouldn't take much to 
make a really big difference for these MHK industries right in 
such a critical time, as you know, in their development.
    Mr. Moniz. Um-hum.
    Mrs. Capps. I encourage the Department to make these 
investments, if you can. But even with this limited funding, I 
applaud you for making such good progress. In my district 
alone, DOE has funded two promising ocean energy projects, a 
local company called Aquantis is leveraging DOE investments to 
develop a cutting edge turbine to harness energy from ocean 
currents. And Cal Poly University in San Los Obispo in my 
district received funding to start planning a promising wave 
energy demonstration off--a project off the coast of 
California--central coast. I am proud to say that Cal Poly is 
one of only two projects selected in the country.
    Now, I want to ask you if DOE plans to provide continued 
support for these demonstration projects to help them get up 
and running. Is that critical as we--you acknowledge and I 
agree that what they call they dark phase of trying to attract 
funding from the outside when you----
    Mr. Moniz. Um-hum.
    Mrs. Capps. But so much promise is held there in this area. 
What are the next steps?
    Mr. Moniz. Well, I can assure you, first of all, I will go 
back and look at those projects. I am not up to the--on the 
specifics. And will get back to you in terms how that looks 
going forward.
    Mrs. Capps. Excellent. I appreciate that.
    Mr. Moniz. Right.
    Mrs. Capps. Because I believe, as many of the folks who 
have done the research in my district have demonstrated to me, 
this holds great promise for the future. But it isn't yet to 
that stage that solar and wind are now even.
    Mr. Moniz. Um-hum. Yes. It is longer term.
    Mrs. Capps. That is right. And so I would encourage you to 
explore in this direction. And I thank you very much for being 
here.
    Mr. Whitfield. The gentlelady yields back the balance of 
her time. Are you----
    Mrs. Capps. Yes. Oh, I am sorry. I do. Yes.
    Mr. Whitfield. OK. At this time, I recognize the gentleman 
from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman. And, Mr. Secretary, 
thanks again for being with us today. And I know that I think 
from the last time you were here, I mentioned this before, but 
I think it is worth mentioning again because we all have to 
look at who we represent. I represent about 60,000 
manufacturing jobs in northwest and west central Ohio, and 
recently I have heard from one of my constituent companies out 
there--and it is a large manufacturer--that they are in a 
voluntary curtailment contract with a local utility. In the 
years past, the agreement with the utility has amounted to some 
small savings for that company during these demands, during the 
peak periods. But recently, the curtailments have often not 
really given any savings, because they have been actually cut 
back because we have had a pretty tough winter in Ohio and 
utilities are asked to, you know, do what they could. So they 
asked the companies. So it is important in these cases, because 
the minor savings that they had enjoyed are gone now. And it is 
also important that, because of that, they have lost production 
time, which means that if folks aren't working, people aren't 
bringing home a paycheck. And the employees of course got 
reduced hours. And then of course when you put that in--when 
people take their paychecks home with the increased electrical 
bills and more expensive healthcare premiums and things like 
that, it is pretty tough.
    So my concern and the concern of the manufacturers that I 
represent is that the problems today are only going to get 
worse as more and more of our coal-powered generation units are 
being retired as a result of the administration's regulations. 
And it is also important to note, again, in Ohio that 78 
percent of our energy in Ohio is coal based. And in some parts 
of the State, particularly in my area, it is even greater than 
that 78 percent.
    So my first question is, What will DOE do, and you, to 
ensure that this Nation's manufacturers have access to reliable 
and affordable electricity going forward? And again, a lot of 
my manufacturers are ones out there that really need that base 
load capacity because they run forges and everything else. So 
what can we expect in the future from the DOE?
    Mr. Moniz. Well, basically, I would say ``all of the 
above'' is part of addressing the electricity system, not only 
the electricity but certainly in that area. The fact is I think 
rates in general for consumers have come down with the natural 
gas revolution. And of course, that has also stimulated more 
manufacturing. Again, we have had perhaps $125 billion invested 
in new manufacturing capacity directly associated with the 
natural gas revolution. We will continue to work on the 
technology side to drive costs down for all of the energy 
sources and also, as was mentioned earlier, storage eventually 
to help with variable sources. And we will continue to--in this 
budget request, we will continue to have a major focus on 
trying to develop the foundational technologies for our 
advanced manufacturing future.
    Mr. Latta. Well, and I agree that we are seeing an 
explosion out there on the natural gas side, which is 
tremendous for our country. But in Ohio, we are very fortunate. 
In the eastern side of the State, we do have the Utica Shale. 
And of course, in Pennsylvania, you have Marcellus. But we just 
can't retrofit these plants. You know, the costs would almost 
be the costs of building a new plant in the retrofits. So these 
costs are going to be passed along to these manufacturers. So 
don't you agree that our manufacturers out there, to stay 
competitive across the world, have to have utility rates that 
are competitive, not just here in this country but across the 
world?
    Mr. Moniz. Well, and I think that is what we are seeing. We 
are seeing that the whole mentality internationally has changed 
about now the United States being a kind of a manufacturing 
center increasingly. And a large part of that is because of our 
energy costs. So maintaining that edge is----
    Mr. Latta. Let me ask this. I know my time has run out. I 
just have one last question for you. If you would see that EPA 
regulations out there are going to impair electricity 
reliability and raise rates, would you raise those concerns 
directly to the EPA?
    Mr. Moniz. Well, again, obviously, we communicate. But 
especially this year in this Quadrennial Energy Review, it will 
be looking across the administration in an integrated way at 
how we maintain and sustain and develop energy infrastructure 
that serves the goals that you have stated.
    Mr. Latta. Mr. Chairman, I see my time has expired, and I 
yield back.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, I recognize the gentleman from Pennsylvania, Mr. Doyle, 
for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman. And, Secretary Moniz, 
welcome to the committee. It is a pleasure to have you here.
    Mr. Secretary, the National Energy Technology Lab budget is 
something that I have a particular interest in. And as you may 
know, my colleagues on both sides of the aisle have asked the 
appropriators that the NETL be funded at 775.5 million for 
fiscal year 2015. And of course, the President's budget has a 
number that is much, much lower than that. I wonder if you 
could elaborate on the administration's vision for the NETL as 
it relates to the President's fiscal year 2015 budget request, 
and could you hypothesize about the effects of the President's 
proposed budget on both research and jobs in southwestern 
Pennsylvania and West Virginia as it relates to the NETL?
    Mr. Moniz. Well, NETL, as you well know, and Mr. McKinley 
as well knows, is our lead fossil energy laboratory. It does 
have an unusual structure compared to our other laboratories in 
having Federal employees as opposed to contractor employees. I 
certainly remain committed to, in particular, to be honest, try 
to continue to build up the research and development activity 
within the laboratory. I think that we have room to increase 
that. And as one example in our budget submission this year, an 
area where NETL certainly has an interest in and strength is in 
something like methane hydrates where we proposed an increase I 
think from 5 to 15 million dollars, you know, because this 
could be--we don't know. But in a couple decades, this could be 
the new shale gas going forward. So those are the things that I 
will be looking at.
    Mr. Doyle. Yes, thank you. And since Mr. McKinley is asking 
questions next, I am sure he will follow-up on NETL. I would 
like to move to CCS though. The Department's carbon capture and 
storage roadmap, which is the blueprint for DOE CCS investments 
notes that the Agency is developing the advanced technology 
platforms needed to prove that CCS can be a viable climate 
mitigation strategy.
    Mr. Secretary, I would like to take this opportunity to 
hear more about the current status of DOE CCS research 
development and demonstration efforts. And in your view, if you 
could tell us what role CCS technologies play in the future of 
coal in this country and around the world? And also, while you 
are addressing that, we know that EPA has proposed pollution 
standards for new coal fired plants that would effectively 
require such plants to use partial CCS. Some members of this 
committee have asserted that CCS just isn't feasible for coal 
fired plants at this time. Dr. Julio Friedmann from your 
Department testified in an O&I Subcommittee that first 
generation CCS technologies are proven and commercially 
available for coal fired power plants right now. A plant owner 
can go out and buy them today with performance. Can you tell me 
first if you agree with that assessment, and then maybe 
elaborate on the Department's efforts with CCS?
    Mr. Moniz. Certainly. Again, the technologies are available 
today. They have all been used in a number of venues. And as I 
said earlier, as with all of our new technologies, we remain 
focused on technology development for further cost reduction. 
In terms of our program, we have right now eight major 
projects. And I would note that most of them are actually CCUS 
where the U is for utilization of the carbon dioxide, in this 
case through enhanced oil recovery, which obviously then gives 
you a monetary return for the CO<INF>2</INF>.
    Mr. Doyle. But isn't it true that in certain parts of the 
country, that is just not possible because--shared oil there?
    Mr. Moniz. Correct. Sure. So that is not--in fact, in 
particular it is no accident that, of the eight major projects 
that we have, the two that do not have utilization are in 
Illinois, where that is not such an attractive option.
    Mr. Doyle. Yes.
    Mr. Moniz. Although I might say there have been many 
interesting discussions about if and when one goes to a system 
with lots of capture plants around the country, including in 
the Midwest and western Pennsylvania, et cetera, that there is 
a lot of interest in building an infrastructure of 
CO<INF>2</INF> that would go down to the Gulf and then over 
towards the Rocky Mountains to have a major CO<INF>2</INF> 
infrastructure.
    Mr. Doyle. Do you think----
    Mr. Moniz. That is in the future.
    Mr. Doyle. Do you think, though, that CCS technology in 
areas like western Pennsylvania where there isn't oil to 
recover--if there isn't a recovery part to help pay for the 
costs that it is still economically and commercially viable in 
those areas?
    Mr. Moniz. Well, look. I think we are going to have to keep 
working to, again, drive costs down. And besides the 
demonstration projects today, which are using basically today's 
technology, we also have--including in ARPE-E, et cetera, 
programs to look at new technologies that can have 
substantially lower costs. I think the research program for 
these novel technologies, next-generation technologies, is in a 
very early stage.
    Mr. Doyle. Yes. Mr. Secretary, thank you. I think that CCS 
is a key to the administration's all-of-the-above strategy if 
we are going to have one.
    Mr. Moniz. It is.
    Mr. Doyle. And I would encourage you to keep the 
investments going. Thank you.
    Mr. Moniz. Yes. We will.
    Mr. Whitfield. At this time, I recognize the gentleman from 
Texas, Dr. Burgess, for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman. Mr. Secretary, thank 
you so much for being here and your forbearance today. Let us 
stay on the all-of-the-above strategy concept for just a 
moment. I think we have a slide that shows the Office of Energy 
Efficiency and Renewable Energy in comparison to other aspects 
of the--of your energy budget.
    [The information follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burgess. And it is--looking at the bar graph, it is 
pretty--it is hard to read the writing. But ERE is the big one. 
And everything else are the small ones. So ERE just absolutely 
overwhelms like nuclear energy, more traditional fossil energy 
and more traditional sources of energy. So it seems like the 
Office of Nuclear Energy, Fossil Energy and Electricity would 
have critical roles to play in shaping the future energy policy 
of the United States. Would--is that a fair statement?
    Mr. Moniz. It is. I could comment on the graph, however, 
and note that EERE, we might think of as two programs, 
efficiency and renewables.
    Mr. Burgess. And I am glad you brought that up, because I 
wished you would. And I believe in energy efficiency.
    Mr. Moniz. Right.
    Mr. Burgess. And sometimes coupling it with renewable 
energy in fact distracts us from the validity and the 
importance of energy efficiency.
    Mr. Moniz. Right.
    Mr. Burgess. No one of either political party is going to 
run on a platform of wasting energy.
    Mr. Moniz. Um-hum.
    Mr. Burgess. So energy efficiency is one of the things that 
I should think we should put high on our list. So in fact for 
future graphs, I would appreciate the ability to tease out what 
is renewable energy and what are the gains that we can have 
from expanded energy efficiency.
    Mr. Moniz. And----
    Mr. Burgess. You were starting to answer. I will let you 
finish.
    Mr. Moniz. And I want to let you know, I am just going to 
add that in the budget request for fiscal year 2015, in fact, 
energy efficiency is actually the largest of the proposed 
increases.
    Mr. Burgess. Let us--and will you be able to--can you 
provide us those figures?
    Mr. Moniz. Sure.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burgess. OK. Thank you. And we don't need to go into it 
now, but if you could make that available? I think that would 
be helpful. And I have got a series of questions that might in 
fact then not be necessary looking at those numbers. I have got 
some questions. The homebuilders back home are really 
concerned. You have got energy building codes that were 
developed by the Department of Energy and authorized to serve 
as the technical advisor during the development of the codes. 
Your role has expanded over time. And now, it has almost moved 
into the point of advocacy. The Department of Energy 
representatives even pursue what are very aggressive energy 
goals that actually increase the cost of housing by having to 
meet these requirements. Is that something that you are willing 
to take a look at?
    Mr. Moniz. I--yes. I am not familiar with that. I will look 
at it.
    Mr. Burgess. I can provide you information that has been 
provided to me by homebuilders in north Texas.
    Mr. Moniz. That would be----
    Mr. Burgess. But apparently, it has been--the requirements 
have been out there for some time. The world has changed around 
them. But the net effect is we are expending a lot of money to 
meet those requirements on technologies that aren't adding that 
much to energy efficiency but really do drive the cost of 
construction when other things might be a more reasonable 
expenditure. So I will make that information available to your 
office.
    Mr. Moniz. Thank you.
    Mr. Burgess. And I would appreciate your response on that.
    Mr. Moniz. OK.
    Mr. Burgess. Thank you, Mr. Chairman. With that, I am going 
to yield back.
    Mr. Whitfield. The gentleman yields back. At this time, I 
will recognize the gentlelady from the Virgin Islands, Dr. 
Christensen, for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary. We are really excited to have you here to discuss 
the 2015 budget for the Department of Energy.
    In order to meet the President's clean energy targets by 
2020, we must continue to support the development and the 
deployment of new innovative clean energy technologies, but we 
also much encourage initiatives that support families to make 
any change that they can at the household level to make to 
increase efficiency. So I am pleased to see that the 
weatherization assistance program has been designated a 31 
percent increase in funding. And I hope this continues to be a 
priority item as it serves critical needs in my district where 
residential rate pairs are charged over 51 cents per kilowatt 
and commercial over 55 cents. And I know you have heard me say 
that before.
    The weatherization program allows our local energy office 
to assist low-income families to reduce their energy costs by 
providing new efficient refrigerators, solar water heaters, air 
conditioning, different bulbs and similar improvements which 
may seem small for some but go a long way in our small and 
tightknit communities. It is also a great benefit to the local 
vendors that provide the products and service for the program.
    The State energy program is another key program that we 
really depend on a lot to provide energy programs for the 
general public, and we want to thank--I want to thank you for 
your support of these two important programs.
    I want to go back to climate change for a minute. And much 
has been said about the intergovernmental panel on climate 
change and their new report that was reported earlier this week 
that described the impact of climate change on our natural 
environment but also warns about the impacts on human health 
and safety. The scientists identified several key risks. One is 
risk of death, injury, ill-health or disruptive livelihoods in 
low-lying coastal zones and small island developing States like 
mine, and other small islands due to storm surges, coastal 
flooding and sea level rise.
    When I was here earlier, you talked about the threats to 
utilities and water supplies. Mr. Secretary, would you agree 
that the potential impacts of climate change pose a human 
health and safety risk to people who live along coastal areas 
or islands as well?
    Mr. Moniz. Certainly. And islands of course are often quite 
exposed. Um-hum.
    Mrs. Christensen. Yes. Periods of extreme heat pose public 
health risks, too. How worried should we be that heat waves 
resulting from--about the heat waves resulting from unchecked 
climate change?
    Mr. Moniz. Well, again, I think what we see are more 
extremes, both hot and cold. We also have the polar vortex, in 
fact, recently.
    Mrs. Christensen. Yes. And the IPPC report also warns that 
extreme weather events, as you said, will become more frequent 
as the climate warms, will damage infrastructure and critical 
services. Given all of these potential impacts, would you 
characterize climate change as also a critical public health 
challenges, not only an environmental challenge?
    Mr. Moniz. Yes, it is an environment, economy, health and 
security challenge.
    Mrs. Christensen. OK. A lot of times when we talk about, 
you know, moving to a greener economy and renewable fuels, the 
talk is about the cost and jobs and economic damage. But we 
never take into account the public health cost. And so I just 
wanted to focus on public health in my questioning.
    Mr. Moniz. Um-hum.
    Mrs. Christensen. Thank you, Mr. Secretary. And thank you 
for being here.
    Mr. Whitfield. The gentlelady yields back. At this time, I 
will recognize the gentleman from Louisiana, Dr. Cassidy, for 5 
minutes.
    Mr. Cassidy. Thank you, Mr. Chairman. Mr. Moniz, how are 
you?
    Mr. Moniz. Hello.
    Mr. Cassidy. Listen. In am following up with something that 
Mr. Hall asked earlier regarding the offshore deep water port 
facilities for liquefied natural gas. Now, as I am told--I was 
in another meeting. I was told that you had mentioned kind of a 
lack of familiarity with it, but you would look into it. Now, 
my concern is that I have here a letter dated October the 18th, 
2013, from Mr. Jonathan Levy, Deputy Chief of Staff of the 
Office of the Secretary of the DOE, and he was requesting that 
the--that there would be a parallel process to review these 
offshore LNG terminals as opposed to the FERC terminals. Now, 
since we are looking to see how we can expedite the approval of 
these processes, and I gather in the FERC process, whichever 
comes off next is the one that you review next, clearly, we 
have something which is outside FERC. It is a parallel agency. 
And this seems something that again the secretary suggested 
that you all would set up the parallel process.
    So with that introduction, it is kind of troubling to me 
that you would not be familiar with it. It tells me that if the 
letter came October 18--and it refers actually to another 
letter from 2012--that this would not be a priority for your 
agency. And if it is not a priority, it is probably not going 
to happen. Can you reassure me regarding my concerns?
    Mr. Moniz. And as I said to Mr. Hall, I think, I will 
certainly go back and look at this whole issue of the MARAD 
approvals in the queue.
    Mr. Cassidy. Yes, if you could, because, frankly, it seems 
like a parallel process is indicated, particularly if we are 
trying to make export of LNG a priority. And, again, my 
concern, the fact that it is kind of an unknown issue suggests 
that it is not a priority. Those are jobs in my State.
    Mr. Moniz. No. To clarify--I mean, I am certainly aware of 
the issue of the MARAD approvals in lieu of FERC approvals for 
that. I just have to go back and look at where we stand in that 
discussion.
    Mr. Cassidy. OK.
    Mr. Moniz. I don't want to give misinformation.
    Mr. Cassidy. OK. Thank you. Let me change gears to mixed 
oxide fuel fabrication. Does that plant on the--in South 
Carolina, I gather that the Department of Energy is seeking to 
put in I would call it mothball. I think it is called cold 
standby. Now, it is my understanding that this was not supposed 
to be done because Congress had indicated that this process 
should be created, that we are now 60 percent through with the 
process and it is going to cost a certain amount of money to 
put it in cold standby that actually could be used for the 
completion of the project. So if--but again, I gather that it 
is being shut down, if you will, because if your concerned 
about the cost. Can you give us that cost analysis to put the 
facility into the cold shutdown? How much will it cost to do 
so?
    Mr. Moniz. Oh, well, first of all, there are several 
analyses about the large lifecycle cost, which are frankly all 
converging to this $30 billion or so.
    Mr. Cassidy. Now, I am told there is a----
    Mr. Moniz. Like----
    Mr. Cassidy. I am sorry. I don't--limited time. I am sorry. 
I am told there is a GAO report that pegs it at 24 billion.
    Mr. Moniz. Yes. So the GAO said 24 billion. But it 
acknowledged that it had left things out and suggested it was 
likely to be higher. And so I think I would put them and the 
DOE analysis and the Army Corps of Engineers' analysis of the 
facility are all consistent in terms----
    Mr. Cassidy. Now, I am told that that Army Corps analysis 
is not yet public. Are--is that going to be made public?
    Mr. Moniz. I anticipate it will be. Yes. It was not full 
lifecycle. That was for the capital facility.
    Mr. Cassidy. Uh-huh.
    Mr. Moniz. But on that part, it was in line--in fact, a 
little bit higher than our estimate. So again, the approach was 
that $30 billion lifecycle looks pretty hard to sustain. So we 
felt that in the fiscal year 2015 budget, we proposed roughly 
$220 million for an options analysis to make sure in the end 
the administration and the Congress have to come together to 
decide, you know, how are we going to dispose of this 
plutonium. Is a $30 billion project the way to go? The 
standby----
    Mr. Cassidy. So is there--I am almost out of time. So if 
there is an alternative, has the alternative been identified? 
And if so, what would be the lifecycle cost of the alternative?
    Mr. Moniz. There was a National Academy report in the 1990s 
that identified 31 alternatives. We have restricted that to 
four or five. Some are reactor alternatives. Some are non-
reactor alternatives. Our initial look suggests that some of 
these are as expensive, but some may not be. So that is what we 
need to work up and come to the Congress with in terms of the 
path forward. We want to make sure that in the standby, nothing 
is irreversible, because MOX remains an option in the suite.
    Mr. Cassidy. OK. I am out of time. I yield back. Thank you.
    Mr. Whitfield. AT this time, the Chair recognizes the 
gentleman from Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the Chair. And welcome back, Secretary 
Moniz.
    Mr. Moniz. Thank you.
    Mr. Olson. My questions today will focus on the nuclear 
power workforce, grid challenges during disasters and, for a 
change, LNG exports.
    First, the energy nuclear power workforce. The South Texas 
Project in Bay City, Texas, is key to the Gulf Coast grid. It 
provides reliable, affordable power to the entire Houston area. 
It has been doing that since 1988. However, STP is dealing with 
an aging workforce. Workers are retiring, and there aren't 
enough qualified replacements. Now, Wharton County Junior 
College is stepping up to the challenge, led by the great 
president, Betty McCrohan. Wharton has opened a fourth campus 
in Bay City. And with the help of the Matagorda County Judge, 
Nate McDonald, they are offering 2-year degrees, associate 
degrees, in three nuclear power specialties. I would love to 
have you come down and see that facility some time, if you are 
going by the South Texas plant.
    But nationally, nuclear power workers and STEM aren't as 
exciting as 4-year liberal arts degrees. And that concerns me. 
I am proud. I graduated from Rice University and from UT Law 
School. But lawyers like me who never practice law and liberal 
arts majors are great with pens and paper but terrible with 
fixing combined cycle gas turbines. And so my question is, What 
do you see when we look at our energy workforce? Is there 
anything DOE can do in its budget relating to finding the next 
generation of scientists, engineers or high-tech construction 
workers?
    Mr. Moniz. I think, you know, we do have somewhat limited 
authorities in terms of direct educational programs. But I 
think this issue of workforce in a number of areas is of 
relevance to the Department's missions. It is a major 
challenge. By the way, we have the same issue in some of our 
laboratories in terms of the nuclear workforce. So we would 
like to work to find ways to focus on core disciplines--core 
areas of relevance to the energy space where we might look at 
increasing things like internship programs, traineeship 
programs, that kind of activity. Because I agree. In fact, Mr. 
Rush mentioned earlier in terms of the Minorities in Energy--we 
need more people coming into the workforce. And that is only 
going to be helped if we work across the entire spectrum, 
gender, race, et cetera. So I would be happy to work with you. 
And----
    Mr. Olson. By yourself or----
    Mr. Moniz. I would send Pete Lyons up to see you.
    Mr. Olson. There you go. Send him down there to Bay City, 
Texas.
    Mr. Moniz. Great.
    Mr. Olson. My second question is about grid recovery and 
disaster. The 2014 hurricane season starts June 1. My hometown 
of Houston, the whole area is in Hurricane Alley. As we have 
seen, the grid can be very vulnerable in severe weather. 
Keeping lights and air conditioning on should be a top priority 
for all of us. When Hurricane Ike hit in 2008, 2 million people 
lost their power. DOE's budget has some priorities I think are 
interesting. You want to spend five times the amount on wind 
energy, $115 million, than on energy infrastructure security 
and restoration, $22.6 million. Texans love wind. We are the 
number one producers of wind in America. But we also remember 
America's most disastrous hurricane, the Galveston Hurricane of 
1900, when over 6,000 people, minimum, were killed. Should I be 
concerned by DOE's priorities here?
    Mr. Moniz. Well, I think frankly we are trying to ramp up 
our emergency response capability, and also our what you might 
call prevention possibility through looking at--to make our 
infrastructure more resilient so that if something does happen, 
it doesn't go down. Or if it goes down, it comes back faster. 
So that is a big focus for us. Again, we have some specific 
proposals in the fiscal year 2015 budget to amplify these 
capacities. One is to have a dedicated energy infrastructure 
response center. It is--I forget, it is a 6 or 8 million 
dollars proposal to outfit a place where we can look at the 
country's infrastructure and help us in directing Federal 
assets to assist with recovery. We also propose to place one 
person in each of the FEMA districts to understand the region 
specific issues with regard to risks. And we feel that, you 
know, that having a person embedded in that way, you really 
understand the local situation, and you can understand who to 
call quickly. Where there are problems, you could do training, 
all kinds of things. So those are two specific initiatives on 
emergency response. But in addition, in the Quadrennial Energy 
Review, there are basically going to be two major focuses. One 
is electricity system, and the other one is the fuels 
infrastructure. And on the latter, for sure, we are going to do 
region by region analyses of the resilient fuels 
infrastructure, because we have seen different problems in all 
different parts of the country. Just recently, the propane, for 
example--especially in the upper Midwest, although it went to 
other parts of the country as well.
    So we really are building in this area. We think it is a 
high priority.
    Mr. Olson. Come see Wharton County Junior College, my 
friend. I yield back.
    Mr. Whitfield. At this time, I recognize the gentleman from 
West Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. And thank you again, 
Mr. Secretary, for appearing before us. I want to build off a 
little bit of what Mr. Green----
    Mr. Whitfield. Would the gentleman move the microphone up? 
Yes. Thank you.
    Mr. McKinley. I have to hold it, I guess. The--I want to 
build off what Doyle and Green both talked about with NETL and 
CCS. The back--so the backdrop of my question is going to have 
to do with that. There are folks that will contend, and maybe 
justifiably, that some of the climate change involves 
CO<INF>2</INF> emissions. I am not going to disagree there is 
climate change. The question I think is how much is manmade. 
Are you with me on----
    Mr. Moniz. Yes, I am trying--yes, I think it----
    Mr. McKinley. How much of it is manmade? So I just--just 
looking at a chart that we put together. Yes. Because the 
variable is the amount produced by man.
    And in this chart, you see that almost 70 percent comes 
from fossil fuels of the energy produced. Now, the second chart 
shows that.
    The second chart shows that very little is being spent in 
research in fossil fuels. And if that indeed is the problem--if 
fossil fuels is the problem, I don't understand why there is a 
disconnect between that and the research with that, because you 
can look at it. The research dollars is only around 18 percent. 
But more specifically, for NETL, the fossil energy research has 
been cut by over 15 percent. And importantly, the comment that 
was raised over there that carbon capture, one of the keys to 
the future of using fossil fuels and under some of the 
regulations that are being issued by the EPA, they have cut the 
research money in carbon capture by 16 percent. They have cut 
the--on carbon storage by 26 percent. If we are serious about 
trying to include fossil fuels in our energy matrix, I think 
someone is being disingenuous about their interest in ``all of 
the above.'' And rather, there truly is this war on coal. So is 
this--are we--do you think the President is deliberately trying 
to discredit or diminish the use of coal in America?
    Mr. Moniz. Again, in terms of the R&D numbers, for example, 
I respectfully feel that this does not give the full picture. I 
mean, this administration is unprecedented in its investments 
in coal, CCS in particular--CCUS, with $6 billion.
    Mr. McKinley. OK. Then why do we see cuts of 40 and 40-some 
percent with NETL? That is----
    Mr. Moniz. But $6 billion in CCUS. And right now, an active 
loan program solicitation of $8 billion for fossil fuels 
generally. I can't get into the specifics of some of the 
initial proposals. There will be more proposals.
    Mr. McKinley. Mr. Secretary----
    Mr. Moniz. But there is coal----
    Mr. McKinley. You can appreciate, we have that 5-minute 
drill we have to--we have limited ability to ask enough 
questions here. But the--my focus again is over NETL. It is 
providing increase research dollars into NETL. And I think it 
sends a message to the laboratories, both in Pennsylvania and 
West Virginia, that we are serious about them, whether that is 
a chemical loop, whether that is a fracking techniques, and all 
the things that have been developed at NETL that they will 
continue, that they can count on, that their employment is 
secure.
    Mr. Moniz. Um-hum.
    Mr. McKinley. I think it also sends a message if we split 
the proper amount of money in NETL. We are sending a strong 
message to the coalminers all across America in the coalfields 
that their jobs are secure, that there is a future for 
coalmining. And it just eliminates the uncertainty. I am--I use 
that backdrop as--for NETL. But also if we continue this attack 
on coal and fossil fuels, and not put the money into the 
research, if we de-carbonize America, do you really think the 
health of the world will improve that much if America alone, by 
itself, were to not burn fossil fuels? Do you think the health 
of the world would be better?
    Mr. Moniz. Well, first, let me say, I will go back and look 
at the NETL program specifically. Number two, as mentioned 
earlier, things like methane hydrates, I think we tripled, 
which will be a NETL interest.
    Mr. McKinley. Sure.
    Mr. Moniz. Third, on the last question, we all recognize 
that obviously the United States alone cannot change the 
trajectory. But what we do is very, very important. And I 
think, and the President feels----
    Mr. McKinley. But wouldn't the other nations----
    Mr. Moniz. And we will share leadership here.
    Mr. McKinley. But, Mr. Secretary, the other nations aren't 
following us. Germany is building more coal fire power houses. 
So my message is until we get a global unanimous effort to try 
to do this, why do we continue to attack our coal industry and 
diminish it and cause uncertainty with it? I am past my time. I 
am sorry. And I would go back to----
    Mr. Moniz. Again, I would just say that we are making 
unprecedented investments in coal, huge in scale.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, I will recognize the gentleman from New York, Mr. Engel, 
for 5 minutes.
    Mr. Engel. Well, thank you very much, Mr. Chairman. Thank 
you, Mr. Secretary. I just want to first say that overall I am 
satisfied with the President's fiscal year 2015 budget, the 
Department of Energy. At a time of significant alarm over 
climate change, I am encouraged that the budget request offers 
a 2.6 increase above fiscal year 2014. And I am particularly 
interested in the budgeting for alternative transportation 
fuels. I want to commend you and the President for proposing a 
2 billion set aside for an energy security trust, as well as 
other investments in alternative fuels and energy efficiency.
    For many years, I have introduced the Open Fuel Standard 
Act just recently with my colleague from Florida, Ileana Ros-
Lehtinen. I have done this for the past several years with 
bipartisan support from this committee. And I do believe that 
this legislation will drive--help drive domestic production of 
all types of alternative fuels, while decreasing our reliance 
on foreign oil from hostile regimes. And it has also been the 
goal of my oil and national security caucus, which is focused 
on ways to reduce our dependence on foreign oil while making 
the U.S. energy independent.
    So, Mr. Secretary, in the past, you have mentioned electric 
vehicles. Can you expand on what other types of alternative 
fuels you foresee being developed and funded through the energy 
security trust?
    Mr. Moniz. Well, I think first of all, with regard to 
vehicles, let us say very broadly, I think there are three 
major thrusts on what we are trying to accomplish. One is 
efficiency vehicles. Second is alternative fuels. The open fuel 
standard would fit in there, of course. And third, 
electrification. And we think they are all important 
directions, and in fact can work together. So on the electric 
vehicles, if you want to focus on that first, we of course are 
continuing the battery research. But issues such as light-
weighting have very, very important implications for electric 
vehicles because of range issues, et cetera. So we are pushing 
on that. And yesterday, we had a discussion with the auto 
suppliers of the United States in terms of the advanced vehicle 
technology program at DOE. And they are noted that much of 
the--almost any plug-in hybrid sold anywhere has some DOE 
driven technology in it. And this provides new opportunities 
for our suppliers.
    Mr. Engel. Thank you. I want to just make a couple of 
statements about some things pertaining to New York. And you 
could submit it to me, because we only have 5 minutes. I know 
there is not time. But, obviously, about Hurricane Sandy is 
something that we are still feeling the pangs of in the 
northeast. During that hurricane or super storm, significant 
fuel supply shortages in New York City area were caused by 
damages to supply train components in New Jersey. And the City 
and State have no authority--regulatory authority to intervene, 
and it has caused problems. I am told New York City requested 
that DOE and the National Petroleum Counsel to convene a 
regional working group to develop a strategy for securing 
physical infrastructure like pipelines, refineries and 
terminals. So I am wondering if you could submit to me--you 
don't have to do it now--an update on the status of the working 
group and its findings. And I also would like to ask you to 
have the Agency follow-up with my office and the City to 
discuss the findings, and to address some of the jurisdictional 
concerns that took place after the storm.
    Mr. Moniz. Certainly. I charged the National Petroleum 
Counsel last October to do this fuel resiliency studies. And it 
will involve as well these issues of authorities and seams in 
gaps of authorities. So that is very important. And we will get 
back to you--to your office.
    Mr. Engel. Thank you. And, finally, I just want to mention 
the whole issue of fracking and with the difficulties we are 
having with Russia bullying all the neighboring countries, 
whether the United States should export natural gas and other 
such things. Can you address what steps DOE is taking to deal 
with environmental concerns that are a result of fracking, such 
as methane leaks and groundwater contamination? People in my 
district get very nervous about it. I have spoken with the 
people that do this. And they, you know, assure me. I have been 
to Alberta. I have been to North Dakota. And they assure us 
that there is no damage of any contamination. Can you tell us 
what your observations are?
    Mr. Moniz. Well, we have been consistently stating that the 
environmental--the footprint issues of production, they are 
challenging but they are manageable. The issue is you have to 
manage them. And we still think there are ways to go. For 
example, our Secretary of Energy Advisory Board just last 
Friday, I think it was, finalized a report called FracFocus, 
looking at the issues of disclosures of chemicals, et cetera, 
et cetera. And while, you know, it gave some credit for 
progress, it also pointed out many areas of possible 
improvement. So what we are doing is, whether it is research or 
it is on issues like this where we are trying to push for a 
continuous improvement, best practices is absolutely critical 
in all cases. So, obviously, it has been a big boom to our 
economy. It will continue to be one. But we need to keep 
working on the footprint. And we have an interagency methane 
strategy where again we will have a lot of responsibilities, 
not only in production but in things like mid and downstream 
gas transportation.
    Mr. Engel. Thank you.
    Mr. Whitfield. The gentleman's time has expired.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Whitfield. At this time, I will recognize the gentleman 
from Illinois, Mr. Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. Mr. Secretary, 
thank you for being here, and thanks for serving your country.
    In 2010, the National Insulation Association, in 
conjunction with the Department of Energy, estimated that the 
simple maintenance of mechanical insulation in industrial and 
manufacturing plants could deliver 3.7 billion in energy 
savings every year. In today's budget climate, would you agree 
that it makes sense to pursue cost saving measures such as the 
increase use and maintenance of mechanical insulation in 
Federal buildings and facilities to help save hard-working-
taxpayer dollars and overall energy consumption?
    Mr. Moniz. Absolutely. Efficiency of buildings is a major 
opportunity.
    Mr. Kinzinger. Has your Agency, through its Federal Energy 
Management Program or any other program, ever evaluated the 
potential energy savings available to Federal agencies through 
the greater utilization or upgrading to mechanical insulation 
in Federal facilities?
    Mr. Moniz. I don't know the answer to that question, but I 
will find it.
    Mr. Kinzinger. OK.
    Mr. Moniz. If I could get back to you----
    Mr. Kinzinger. Well, would you commit to evaluating the 
potential source, the energy savings?
    Mr. Moniz. Yes.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kinzinger. Mr. Secretary, as we have seen in this 
committee and others, Russia has been wielding its energy 
prowess on the world stage for some time now. Not only do they 
supply the majority of natural gas to our European allies, but 
they are also exporting their nuclear technology at a rapid 
pace. In fact, I was recently in Hungary. And they signed 
another agreement with the Russians in terms of nuclear 
production. In fact, Russia has either built or is in the 
process of building 36 reactors around the world. The last time 
we had a chance to talk on this subcommittee, I expressed my 
concerns that a vacuum of U.S. nuclear energy exports would 
occur in the very near future if your Agency did not set out 
clear and concise guidelines to push forward an effective 
nuclear energy policy. I believe the U.S. should be the leader 
in the realm of nuclear expertise. But Russia's influence in 
nuclear energy exports, and therefore their geopolitical 
influence, seems to be expanding beyond ours. What are you 
doing, and your Agency doing, to reestablish our 
competitiveness in this area?
    Mr. Moniz. Well, it is a whole variety of things. One is we 
did provide a loan guarantee for the new AP1000 construction 
reactors in Georgia. We are pursuing of course R&D. But in 
addition to that, I might say on a very different vein, when 
sanctioned by the Government, we have been very active in 
promoting U.S. technology abroad, including quite recently 
the--I think there is a lot of promise for both Westinghouse 
and GE technologies right now abroad. The fact that we are 
building in this country makes a huge difference in terms of 
being able to promote the technology. China is building a whole 
bunch of Westinghouse reactors. But just one comment, Russia--
you mentioned Russia. I would just note that in some cases, 
they do something that we can't do----
    Mr. Kinzinger. Right.
    Mr. Moniz [continuing]. Which is essentially provide the 
financing and make it a turnkey operation.
    Mr. Kinzinger. Yes, and I appreciate that. And I think that 
is a conversation as a Congress we have to have, and with the 
administration in terms of that. Because, obviously, the 
Russians are providing this financial support for a reason, for 
a geopolitical advantage. So when we don't do things like that, 
or we are not competitive in this arena, I think it affects us 
geopolitically.
    As the chairman noted earlier, and it was mentioned 
earlier, I also have concerns with your decision to stop the 
construction of the MOX plan in South Carolina. Beyond the 
concerns I have with the decision with taxpayer money sitting 
dormant on a project that is nearly 60 percent complete, I have 
concerns with the impact that this will have in the realm of 
non-proliferation with Russia. I have seen comments from a 
former Russian official who said the decision to stop 
construction of this plant is a breach of the U.S./Russian 
agreement on this issue, and that Russia may decide to go their 
own way since the U.S. is not following through with its end of 
the deal. Did you consider the ramifications when you made this 
decision? If so, why? If not, why? And if so, do you believe 
this is still the correct path forward?
    Mr. Moniz. First of all, those issues were very much a part 
of the discussion. And I do want to emphasize, we have not 
canceled the MOX project. The----
    Mr. Kinzinger. The Russians think we have. So----
    Mr. Moniz. Well, I would just say discussions with Russia 
have changed in character over the last couple of months.
    Mr. Kinzinger. Understood.
    Mr. Moniz. So I did discuss this with Mr. Kirienko, head of 
Rosatom, twice, as I saw the costs going up, just saying look, 
this is just a heads up kind of thing. I don't know where we 
are going with that yet. But what I want to emphasize is that, 
as I said earlier, I think the lifecycle cost estimates are 
pretty much converging to this kind of $30 billion number.
    Mr. Kinzinger. OK.
    Mr. Moniz. And that is a big number. And I think it is a 
collective decision about what we can do.
    Mr. Kinzinger. Thank you. And I will just end with this, 
over the past decade, the EEU has pursued a broad range of 
climate policies, including renewable energy subsidies for wind 
and solar power. Those climate policies have led to high energy 
costs in Europe. In fact, I had some interesting conversation 
with some CEOs of European companies. And they are threatening 
the competitiveness of many of Europe's energy intensive 
industries. I just want to say in closing, I hope that raises 
red flags with you, and you take a look at kind of the European 
experience versus ours and act accordingly. Thank you for your 
time and being here, and I yield back.
    Mr. Moniz. Thank you.
    Mr. Whitfield. The gentleman yields back. At this time, I 
recognize the gentleman from Virginia, Mr. Griffith, for 5 
minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate that. 
Thank you so much for being here, Mr. Secretary.
    The Energy Policy Act of 2005 authorized the Clean Coal 
Technology Program and certain tax credits to assist 
development of the next generation clean coal technology, 
including carbon capture and sequestration. My understanding of 
what your discussion was earlier this morning with Congressman 
Doyle was that the DOE believes these projects on carbon 
capture and sequestration that are currently ongoing reflect 
technology that is already in or demonstrated as viable for 
commercial service in coal power plants. Is that--am I correct 
in my understanding of your previous testimony?
    Mr. Moniz. Yes, they are mainly using solvent technologies 
that have been used before.
    Mr. Griffith. So here is the Catch 22. I am not sure I 
agree with you, because also, as Congressman Doyle pointed out, 
unless you happen to be like the Mississippi facility right 
down the road from the oil well where you are going to use the 
carbon to push up the oil that they may not be commercially 
viable. But the Catch 22 is that if that is accurate, the 
statute makes it clear that you are not supposed to be giving 
them money anymore. If they are commercially viable now, they 
don't need the support from the tax credits. But you are still 
giving them the tax credits, are you not?
    Mr. Moniz. The issue is that this is a system integration 
issue pursuing a new deployment of the whole system. So it is I 
would say quite eligible.
    Mr. Griffith. Well, I mean the problem is it says that this 
technology has to be well beyond the level therein commercial 
service or have been demonstrated as viable for commercial 
service. So you are in a Catch 22 because if they are in fact 
viable for commercial service, as both you and the EPA submit--
--
    Mr. Moniz. Um-hum.
    Mr. Griffith [continuing]. I happen to disagree they are 
not eligible for the money. If they are commercially viable, 
they are not eligible for the money. And so I would submit that 
you all need to figure that one out, either cut the money off 
or--and say that they are commercially viable, or admit that 
they aren't commercially viable.
    Mr. Moniz. Well----
    Mr. Griffith. And I don't know that there is an answer 
necessary for that. But that is the dilemma that we have is 
that if you are following the code, which I always think is the 
right thing to do--that is why we have a Congress. That is why 
we pass laws.
    Mr. Moniz. Agreed.
    Mr. Griffith. This is why we have a Senate and a House that 
pass them, and a President that signs them.
    Mr. Moniz. Um-hum.
    Mr. Griffith. Is because we actually mean for people to 
follow them.
    Mr. Moniz. Um-hum.
    Mr. Griffith. If we follow the law, you can't have it both 
ways. You can't say they are commercially viable, therefore 
these new regs come into effect, or they aren't commercially 
viable, therefore they are eligible for the tax credits. I 
submit they are eligible for the tax credits, but that the EPA 
has got the cart before the horse and that you need to probably 
call their hand on it. That being said, let me move on because 
you can't respond. And I appreciate that. And I understand 
that. I am not offended by that.
    The EIA has reported in February that the number of coal 
fired power plant retirements will be higher than originally 
anticipated, and that an estimated 60 gigawatts of coal fired 
capacity will retire by 2020. Notably, EIA expects 90 percent 
of the coal fired capacity retirements to occur by 2016. Now, 
this means nearly 18 percent of all coal fired generation in 
the United States will retire in the next 2 years due to new 
regulations. Are you concerned--is the DOE concerned that the 
loss of these critical generation facilities in such a short 
timeframe will make it increasingly difficult to meet 
electricity demands as we move forward, putting reliability at 
risk?
    Mr. Moniz. First, I would just comment that I think, you 
know, the market forces with gas cannot also be dismissed in 
terms of what is happening with coal. But the analyses that I 
have seen suggest that reliability will certainly be preserved 
if this is what happens over these next years.
    Mr. Griffith. Well, and my concern is that I recognize that 
at some point, because of the regulations, gas is going to 
surpass coal. I may not like that, but that is where we are 
headed. And I also recognize that someday coal--gas may be able 
to take up that slack. What I am concerned about is between 
today and that time period. I am concerned that next year, or 
in the winter of 2016, that we will see some real problems with 
this many coal plants being reduced. And I think that DOE ought 
to be concerned about that as well.
    Also, with all that new expenditure, closing down 
facilities--in fact, there are two different facilities--three 
different generators, but two facilities in my district alone 
that will be closing down. One of the ones that will close 
down, which is a third one I didn't--or a fourth one, depending 
on how you count them--that I didn't mention is converting to 
natural gas. But with all those expenditures having to be made 
by the power companies, it is reasonably expected that costs 
will go up as the power companies recoup their expenditures. 
Isn't that true?
    Mr. Moniz. I assume. I don't know the details of the rate 
case. But I assume that that would be the case.
    Mr. Griffith. And let me make an assumption, and you 
correct me if I am wrong. I would assume that you all are 
talking with EPA about any concerns related to reliability 
between the present and whenever natural gas can pick up the 
slack? But if we are going to lose 18 percent over the next 2 
years, that is a pretty significant cliff----
    Mr. Moniz. And----
    Mr. Griffith [continuing]. For the power companies to 
adjust to, is it not?
    Mr. Moniz. And with FERC.
    Mr. Griffith. And with FERC. Sure. But that is a big--that 
is a steep cliff, is it not? Eighteen percent of coal being 
gone when it is about 40 percent?
    Mr. Moniz. Well, 60 gigawatts to 2020 would be a 
substantial amount. But again, analyses that have been done 
suggest that reliability will be preserved. That is also at the 
ISO level a lot, those calculations.
    Mr. Griffith. I hope you are right. I yield back.
    Mr. Moniz. Thank you.
    Mr. Whitfield. The gentleman's time has expired. At this 
time, I recognize the gentleman from Colorado, Mr. Gardner, for 
5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman. And thank you to you, 
Mr. Secretary. And I join my colleagues in thanking you for 
your service as well.
    I have just a couple of questions for you. In May of last 
year, President Obama was quoted as saying he has to make an 
executive decision broadly about whether or not we export 
liquefied natural gas at all. What discussions have you had 
with President Obama regarding the issue of LNG exports?
    Mr. Moniz. Well, and we have discussed this, including 
recently obviously in the context of the situation in Europe at 
the moment. And at this stage, we are carrying through with the 
process and the strategy as has been practiced. And again, as I 
noted earlier, one should not dismiss the scale of what has 
already been at least conditionally approved prior to the FERC 
approval, because the 9.3 BCF per day is already essentially 
equal to the exports to Qatar, the world's largest LNG 
exporter.
    Mr. Gardner. But has the crisis involving Russia and the 
Ukraine influenced your decision making or your timeframe at 
all with respect to LNG exports?
    Mr. Moniz. A major issue there is if you look at our last 
Order, the Jordon Cove Order of last week, I think it was, or 
the week before, there is a discussion of the international 
markets and putting LNG into international markets. But the 
major thing right now is we are going to have, as was 
announced--well, really announced--last week and discussed 
again in Brussels yesterday, we are going to have, under the G7 
umbrella, an energy minister's process that was going to look 
at our collective energy security.
    Mr. Gardner. So we are exporting our energy security to 
other nations to make that decision?
    Mr. Moniz. No, no, no, no. Quite the contrary. Obviously--
--
    Mr. Gardner. So the G7 will make decisions on whether or 
not we expedite LNG exports?
    Mr. Moniz. No. We are going to have a meeting to discuss 
our collective interest in energy security. Now, obviously, the 
risks----
    Mr. Gardner. So we are waiting for the G7 to get back to us 
on whether or not we expedite LNG permitting?
    Mr. Moniz. Look, obviously, we are evaluating this 
ourselves----
    Mr. Gardner. But is--so are we waiting for G7 signoff?
    Mr. Moniz. The process we are talking about--there was a 
meeting already yesterday. And----
    Mr. Gardner. Of the G7?
    Mr. Moniz. No. There was a meeting yesterday of ESEU 
Secretary Kerry and DOE Deputy Secretary Poneman. And we will 
very soon be having a G7 process----
    Mr. Gardner. Let me just ask this, because I have a number 
of other questions, including whether or not you have taken the 
time to look at H.R. 6 in the House and whether or not you 
support the legislation making it easier to export. But I want 
to make this clear, so we are asking the G7 whether or not it 
is in the world's interest to export LNG from the United 
States?
    Mr. Moniz. No. I did not say that. We will be having a 
discussion around the whole set of issues of energy security, 
what it means for us, what it means for them.
    Mr. Gardner. And permitting----
    Mr. Moniz. It is not----
    Mr. Gardner. Do you see issues coming out of that?
    Mr. Moniz. It is not an LNG export caucus.
    Mr. Gardner. Well, let me just ask you this then, are you 
basing determinations on LNG exports in part on those 
discussions with the G7 nations?
    Mr. Moniz. I would use that as an input going forward. Of 
course.
    Mr. Gardner. So is it the President's--is it the 
administration's opinion that we will wait for G7 discussions 
before we approve further DOE permits?
    Mr. Moniz. No, I did not say that. No.
    Mr. Gardner. Well, I would like to know more about this, 
because I think it is alarming that we would wait for G7 
nations for approval to export LNG.
    Mr. Moniz. Which is why I did not say we would wait.
    Mr. Gardner. You just said that part of your determinations 
would be made on discussions with G7.
    Mr. Moniz. As we go down the road, we--this is a long 
process.
    Mr. Gardner. To approve the permits is a long process?
    Mr. Moniz. Well, look, we have a public interest 
determination by law.
    Mr. Gardner. Should we or should we not expedite LNG 
permitting in this country?
    Mr. Moniz. We have been working expeditiously on a case by 
case basis, based upon substantial----
    Mr. Gardner. Could we do it faster than we already are?
    Mr. Moniz [continuing]. And making a public interest 
determination that we are required to make by law. If the law 
changes, we will follow the law.
    Mr. Gardner. Will the public interest determination weigh 
in part on the G7 discussions?
    Mr. Moniz. Not directly. That is our responsibility to do 
that.
    Mr. Gardner. But indirectly, the G7 discussions will weigh 
on a U.S. public interest determination?
    Mr. Moniz. Geopolitical issues have always been on the list 
of issues to address in the public interest determination. They 
are there. Now, obviously, discussing with our friends and 
allies energy security issues is part of a geopolitical 
consideration.
    Mr. Gardner. Is there any----
    Mr. Moniz. Which is balanced against things like domestic 
market considerations.
    Mr. Gardner. Is there anything in the law right now 
preventing DOE from a decision to approve all pending permits?
    Mr. Moniz. First of all, we cannot give approval until, at 
a minimum, the NEPA process is completed, which is at FERC.
    Mr. Gardner. DOE is waiting on FERC first before you make a 
decision? That is not what you mean?
    Mr. Moniz. Yes. The current approach is that we give a 
conditional--just to clarify: We have issued one final and six 
conditional approvals. There is only one final approval. That 
is the Sabine Pass Project in Louisiana. And they will start 
exporting in 2015. The additional six--and I have approved five 
of those--are conditional.
    Mr. Gardner. Conditionally--conditional.
    Mr. Moniz. Conditional approvals. They must also get NEPA 
process approval through FERC, although earlier----
    Mr. Gardner. But DOE--for your side, you don't wait for 
FERC to make their determination for your side to approve? You 
are saying that?
    Mr. Moniz. No. We have to wait. Yes.
    Mr. Gardner. OK.
    Mr. Moniz. By law, we----
    Mr. Gardner. Right.
    Mr. Moniz. WE must have the environmental--the NEPA 
approval.
    Mr. Gardner. Right.
    Mr. Moniz. And just to clarify, because two other members 
mentioned this earlier, the one distinction is that there are 
now some applicants for deep water LNG. So that would not be 
FERC, but there would be an analogous MARAD determination that 
we would need to have on the environmental side.
    Mr. Gardner. I am running out of time here. In fact, I 
think I have run out of time. But another question, H.R. 6, the 
bill that we mentioned was in the House would provide expedited 
approval to World Trade Organization member nations. Wouldn't 
this bill make your job easier and reduce the time required to 
wait for DOE, and indeed improve our geopolitical security 
around the world?
    Mr. Moniz. I think the choice is to Congress whether it 
wants to or not want to emphasize the public interest 
determination.
    Mr. Gardner. Thank you, Mr. Chairman. Thank you.
    Mr. Whitfield. Time has expired. At this time, I recognize 
the gentleman from Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And, Mr. Secretary, 
good to see you again.
    Mr. Moniz. Good to see you.
    Mr. Johnson. Thank you for being here. I would like to ask 
a few questions about the American centrifuge program in 
Piketon, Ohio, which I think you know is a couple of frog jumps 
away from my district border, just across the county line. I 
first want to ask you--and I think I know the answer to this, 
because I asked you this the last time you were with us. Do you 
still believe the U.S.--the United States needs a domestic 
enrichment capacity for national security purposes?
    Mr. Moniz. For national security purposes, we need an 
American technology capacity for enrichment.
    Mr. Johnson. OK. I think so, too. Over the last 2 years, 
the Department has invested 280 million to build, install and 
test the centrifuge machines needed to address this very 
critical national security purpose. Your Department actually 
owns the centrifuge machines and the support equipment. And 
testing over the past year has demonstrated its technical 
readiness. I understand that yesterday, when you testified 
before Energy and Water Development Subcommittee, you indicated 
that the Department was looking to use the transfer authority 
provided in the omnibus to fund the continued activities after 
the RD&D program concludes on April 15.
    Mr. Moniz. Correct.
    Mr. Johnson. This would avoid the major disruptions from 
job losses, industrial demobilization and operational stoppage, 
and will likely save the taxpayers money in the long run. I 
want to commend you for that--for pursuing this course of 
action. I do have a couple of questions though about the 
timing. First, the language in the omnibus states that before 
the Department can transfer the 56.65 million, DOE must first 
submit a cost benefit report on all the options for securing 
the low enriched uranium fuel needed for national security 
purposes and your preference. And most importantly, that report 
must cite--or must sit with the two relevant appropriation 
subcommittees for 30 days and receive their approval before you 
can initiate the transfer. So the clock must run for at least 
30 days, but the current funding for the enrichment activities 
expires April 15. So you can see mine and others concerns with 
regards to the timing. First, how are you going to fund the 
continued operations after April 15 until the report has made 
it through the appropriations subcommittees?
    Mr. Moniz. We are working that assiduously at the moment. 
We think we can get through this.
    Mr. Johnson. But you are determined to get through it?
    Mr. Moniz. That is absolutely the intent.
    Mr. Johnson. OK. Second, I know that yesterday you said 
your Department was working to expeditiously work to finish the 
report. But can you give us any more precise timeline on when 
the Department's cost benefit report and reprogramming request 
might be sent to Congress?
    Mr. Moniz. I would prefer to check back with the people and 
get--I can get back to you shortly after this----
    Mr. Johnson. Can you get back to me on----
    Mr. Moniz. Yes.
    [The information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Johnson. OK. Thank you. Finally, I understand that 
there is about 10 million of funding that remains available for 
you to use from the 62 million that Congress appropriated in 
the fiscal year 2014 omnibus. Are you prepared to utilize those 
funds to continue operations and avoid a major disruption in 
the program to cover the gap until the transfer authority is 
received?
    Mr. Moniz. As I said, I think we have ways of getting 
through this period.
    Mr. Johnson. OK. All right.
    Mr. Moniz. Right.
    Mr. Johnson. Well, as you can imagine, I have some 
concerned constituents that have received warn notices 
recently, and only want to ensure that we don't have any work 
stoppages. Anything that I can do to help move this process 
along, I want you to know that I stand ready to help.
    Mr. Moniz. Thank you.
    Mr. Johnson. I thank you for your leadership on this issue. 
Not only does this program support jobs for my constituents, 
but, as we discussed, it is vitally important for our national 
security. And I look forward to working with you on it.
    Mr. Moniz. I would just add that again, we are committed to 
preserving the technology and the IP. The management structure, 
for obvious reasons, may be transitioning.
    Mr. Johnson. Sure.
    Mr. Moniz. Yes.
    Mr. Johnson. Now, shifting gears just a little bit, going 
back to the LNG export issue. You and I have discussed LNG 
exports. I co-chair the LNG export working group here in the 
House. Some report--some press reports have indicated that 
there has been potentially some kind of deal struck between 
your Department and Senator Stabenow. You know, she was opposed 
to liquid natural gas exports. She was putting a hold on one of 
your committee's nominees coming through the Senate. And but 
now she has said hey, I am now more comfortable with what the 
Department is doing. Has there been some kind of deal struck 
between you and Senator Stabenow that we need to know about?
    Mr. Moniz. No, we--um-hum----
    Mr. Johnson. Because quite honestly, Mr. Secretary, and I 
love the work that you are doing, you and I have a very 
different definition of expeditiously, especially with all of 
the opportunities for job creation and energy independence.
    Mr. Moniz. Um-hum.
    Mr. Johnson. I just--I still fail to understand why it is 
taking so long to get these permits approved.
    Mr. Moniz. First, let me say, Senator Stabenow, of course, 
is by no means the only member of Congress who is concerned 
about the ramp rate of LNG exports. No one to my knowledge is--
well, almost no one at least is arguing against LNG exports. It 
is this whole question of pace and cumulative impacts as it 
might have in terms of domestic prices for consumers and----
    Mr. Johnson. So has there been any kind of deal made 
between----
    Mr. Moniz. No.
    Mr. Johnson. I see.
    Mr. Moniz. So we have had--with her and with others, we 
have had discussions about what our process is and what the 
role is for cumulative impacts on the economy.
    Mr. Johnson. OK.
    Mr. Moniz. Yes.
    Mr. Johnson. Thank you, Mr. Secretary. I yield back, Mr. 
Chairman. Thank you.
    Mr. Whitfield. Yes, sir. And I am going to have some 
concluding remarks that I want to make. Maybe there will be a 
question or two in there. And then if you want to respond to 
it, you are free to do so. And certainly, Mr. Rush, as well.
    But I just wanted to comment on your response to Cory 
Gardner's question about his legislation, H.R. 6, conjured up 
in my mind what I am getting ready to say. You answered him by 
saying, you know, that is a legislative decision about whether 
or not the Congress will pass this legislation or not. And part 
of the animosity that is developed in the Congress with the 
President of the United States particularly has related to 
climate change. And particularly, when he has emphatically made 
it very clear that, ``If Congress does not act in a way that I 
want it to act, then I am going to do what I want to do 
anyway.'' And the point that I would make is that Congress did 
act, in my view. Congress did not pass the Cap and Trade Bill. 
It was a Democratic-controlled Senate that did not pass the Cap 
and Trade Bill.
    The House, last week, passed legislation. That was the 
first time ever that Congress gave EPA the authority to 
regulate greenhouse gases, CO<INF>2</INF> emissions. Now, I am 
not going to get into the court--Supreme Court decision. But 
this legislation passed Congress giving EPA the authority. And 
we cannot get the administration to focus on it. The President 
said he would veto that bill. So I take it from that that if we 
don't do precisely what he wants on global--on climate change, 
that, as he said, he will go it alone. And many people in his 
administration have said the same thing.
    And so when I look at the--and he is doing that by 
executive order, by executive actions. And when I look at the 
budget here, electric delivery and energy reliability, $180 
million. Renewable energy alone, $1.3 billion. And then when 
you look at the original legislation establishing the 
Department of Energy, it says the mission is to promote the 
interest of consumers through the provision of an adequate and 
reliable supply of energy at the lowest reasonable cost. And so 
many agencies of the Federal Government are totally focused on 
climate change. That is why so much money is going into that, 
even though it is contrary to the original mission statute.
    And the bottom line of it turns out to be this: When the 
EPA issued that greenhouse gas regulation, which in effect 
makes it impossible to build a new coal plant in America--and I 
agree with you, Mr. Secretary, no one is getting ready to build 
a coal plant in America, because the natural gas prices are so 
low. But what if we find ourselves the way Europe has found 
themselves? The gas coming from Russia is so expensive that 
last year, Europe imported 53 percent of our coal exports, and 
they are building coal plants. So if our natural gas prices 
start going up, we don't have the option.
    And then next year, 2015, they are going to be coming out 
with a regulation on existing coal-fired plants, in addition to 
the utility MAC, in addition to the new. So we have genuine 
concerns about our ability to compete in the global 
marketplace. And we are moving so fast. The President's pushing 
so hard. I agree with Professor Turlington over at George 
Washington University who said the President is becoming a 
government into himself. So I just want to make that comment. 
And you may not agree with me on this, Bobby.
    Mr. Rush. I certainly don't agree with that.
    Mr. Whitfield. But let me just conclude by saying thank you 
for being with us. We look forward to continued work this you 
on a lot of issues affecting our country. And we appreciate 
your being available all the time.
    Mr. Moniz. Thank you.
    Mr. Rush. Mr. Chairman, I just want to say, I don't agree 
with you on this. And I very rarely agree with you. So it is 
not out of the question that I don't agree with you right--at 
this present time. I think your characterization of the 
President is totally inadequate. And--so but we have had 
disagreements for a long time now. And I don't think either one 
of us is going to change our opinion about our President.
    Mr. Secretary, one area that DOE can have a direct impact 
in helping to increase minority engagement is in the 17 
publicly funded national research labs, and in areas of 
contracting and management and operations, technology 
transfers. I am finding that most of these labs are mostly 
failing in their outreach and partnerships with historically 
black colleges and universities, minority serving institutions, 
as well as minority contractors and entrepreneurial and in the 
whole are of minority engagement, they are willfully lacking 
in. I mean, almost heartbreakingly lacking you look at them--
you look at the lineup and you visit these places and you see 
no diversity at all. And having seen diversity therein in 
decades, and some of them never had any diverse top level 
staffing and leadership. And I think that, as you indicated 
earlier, maybe the problem is a lack of minorities in key 
leadership positions, most--at the labs and maybe even at the 
Department itself. What do you think are some of the obstacles 
that we are--that we must overcome, some of the prohibitions? 
And is your Department sufficiently diverse to--in the decision 
making process to allow for more diversity in leadership--not 
only in the Department but in these labs? I mean, these labs 
are just enormous public taxpayer dollars. And some of them 
have--don't even remotely reflect any attempt at diversity. And 
I am really concerned about that. So can you give me some idea 
about how you--what you--how you view the problem? And I know 
we have had this discussion many times, you know, but I want to 
just refresh the discussion.
    Mr. Moniz. First of all, I think it is important that it is 
clearly understood that the Secretary considers this a 
priority. And we are promulgating this. We have raised it with 
the lab directors. And they have responded enthusiastically. 
Now, we have to do something about it. But frankly, when I 
raised this at the laboratory policy counsel, the reaction of 
the lab directors was, ``God, you are right. We just have to do 
this.'' So that is a good start. But that is only a start. 
Number two, we have just in the last month, by the way, 
including at Argonne, in your neck of the woods, appointed lab 
directors. In each case, we went through very carefully the 
nature of the search, its openness, et cetera. And, frankly, 
while those appointed themselves did not increase the 
diversity, each one of the three made very, very strong 
commitments to look at this.
    I think that is what has been missing--and I am talking in 
the laboratory system. And the lab directors have responded 
very positively on this. It is not that it is totally missing, 
but we are not up to snuff in terms of what I would call 
leadership development programs. That it is not only for 
diverse candidates but includes a focus on diversity of 
understanding--I think as many corporations do extremely well. 
You are always looking at how you develop the leaders in the 
organization so that you have people who can come up. So that 
is a focus that we are going to advance, and we have started. 
But we have a long way to go.
    Mr. Rush. Mr. Secretary, I really look forward to working 
with you and see--as you well know, I am very passionate about 
this issue. I--and so I look forward to working with you on 
this issue.
    Mr. Moniz. Great.
    Mr. Rush. And, Mr. Chairman, I look forward to us having a 
discussion in terms of having a hearing on these and other 
matters.
    Mr. Whitfield. Yes. Yes, and we are going to be setting 
down the next couple of days on your legislation, because our 
staff has been working together. But--well, that concludes 
today's hearing. Mr. Secretary, thank you once again. And thank 
you for your staff and all of your time and availability.
    Mr. Moniz. Thank you.
    Mr. Whitfield. And the record will remain open for 10 days. 
And with that, the hearing is adjourned.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
